<html>
<title> - SLEEPING BEAR DUNES; RECREATIONAL FEE DEMONSTRATION; AND SCHOOLS IN YOSEMITE NATIONAL PARK</title>
<body><pre>[Senate Hearing 108-193]
[From the U.S. Government Printing Office]



                                                      S. Hrg. 108-193
 
  SLEEPING BEAR DUNES; RECREATIONAL FEE DEMONSTRATION; AND SCHOOLS IN 
                         YOSEMITE NATIONAL PARK

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                                 S. 808

   TO PROVIDE FOR EXPANSION OF SLEEPING BEAR DUNES NATIONAL LAKESHORE

                                S. 1107

TO ENHANCE THE RECREATIONAL FEE DEMONSTRATION PROGRAM FOR THE NATIONAL 
                  PARK SERVICE, AND FOR OTHER PURPOSES

                                H.R. 620

  TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO PROVIDE SUPPLEMENTAL 
 FUNDING AND OTHER SERVICES THAT ARE NECESSARY TO ASSIST THE STATE OF 
  CALIFORNIA OR LOCAL EDUCATIONAL AGENCIES IN CALIFORNIA IN PROVIDING 
EDUCATIONAL SERVICES FOR STUDENTS ATTENDING SCHOOLS LOCATED WITHIN THE 
                                  PARK

                               __________

                           SEPTEMBER 9, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
90-514 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
                  DON NICKLES, Oklahoma, Vice Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER. Tennessee           BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel J., U.S. Senator from Hawaii..................     4
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     4
Burns, Hon. Conrad, U.S. Senator from Montana....................     2
Funkhouser, Robert, President, Western Slope No-Fee Coalition, 
  Norwood, CO....................................................    37
Levin, Hon. Carl, U.S. Senator from Michigan.....................     5
Maddy, Jim, President, National Park Foundation..................    28
Olson, Ken, President, Friends of Acadia, Bar Harbor, ME.........    34
Radanovich, Hon. George P., U.S. Representative from California..     7
Ring, Richard, Associate Director for Administration, Business 
  Practices and Workforce Development, National Park Service, 
  Department of the Interior.....................................    19
Scarlett, P. Lynn, Assistant Secretary for Policy, Management, 
  and Budget, Department of the Interior.........................    11
Stabenow, Hon. Debbie, U.S. Senator from Michigan................     2
Stupak, Hon. Bart, U.S. Representative from Michigan.............     3
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                                APPENDIX

Additional material submitted for the record.....................    45


  SLEEPING BEAR DUNES; RECREATIONAL FEE DEMONSTRATION; AND SCHOOLS IN 
                         YOSEMITE NATIONAL PARK

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2003

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. We'll bring the committee to order, please. 
Thank you for being here. I want to welcome representatives 
from the Department of the Interior and other witnesses for 
today's Parks Subcommittee hearing.
    Our purpose is to hear testimony on three bills under 
consideration by the subcommittee, S. 808, a bill for expansion 
of Sleeping Bear Dunes National Lakeshore, in Michigan; S. 
1107, a bill to enhance the recreational fee demonstration 
program for the National Park Service, and H.R. 620, a bill to 
authorize the Secretary of Interior to provide supplemental 
funding and other services to schools located within Yosemite 
National Park.
    All three bills are important to this subcommittee. We will 
devote the majority of the time to the recreational fee bill, 
because it has the potential effect on the entire Park Service 
and not just a single park. The collection of fees at national 
parks and other federation lands has been a demonstration 
program for over 5 years. The time has come, and perhaps 
overdue, to consider permanent legislation and to define the 
appropriate role for future fee collection and expenditures.
    Currently, the Recreation Fee Demonstration Program allows 
the National Park Service, Bureau of Land Management, Fish and 
Wildlife Service, and U.S. Forest Service to collect and expend 
funds for visitor services, maintenance, and repair facilities, 
as well as cultural natural-resource management. I believe the 
collection of fees by Federal land agencies should be 
restricted to improve facilities at National Parks. This is not 
to slight the Forest Service or the Bureau of Land Management 
or the Fish and Wildlife Service; it's only a beginning point. 
Any fee legislation must prohibit charging for everything in 
sight. There are limits to what we can fairly demand and what 
our constituents are willing to pay.
    The following concerns were taken into consideration when 
preparing S. 1107: fees should be charged to legitimate 
improved visitor services; market analysis prior to 
implementation or increase of any fee; no fee or increase in 
fee should take place without advanced notice to the general 
public; accountability of fees collected and distributed along 
with advanced notice to the Congress of specific projects that 
will be in the pipeline; and expedite the obligation and 
expenditure of the funds. We need to guarantee our national 
treasures are available for generations to come. I believe that 
Congress, the Park Service and those interested in helping the 
parks should cooperate on initiatives to improve resources, 
increase services, and improve management throughout the 
system. So, working together, we can do this.
    Again, thank you and the witnesses for being here today.
    Let me turn now to the ranking member, Senator Akaka.
    [The prepared statements of Senators Stabenow, Burns, and 
Representative Stupak follow:]
 Prepared Statement of Hon. Debbie Stabenow, U.S. Senator From Michigan
    I want to thank Chairman Thomas and Ranking Member Akaka for 
holding this hearing. I am proud to be a co-sponsor of S. 808, a bill 
to provide for expansion of Sleeping Bear Dunes National Lakeshore and 
I look forward to working with you on this important issue.
    This bill is the result of long and thoughtful discussions between 
the private landowners the Homestead Resorts, the National Park Service 
and the local community who all worked together to reach this solution 
to protect the Crystal River land from development. This bill also has 
the support of the Nature Conservancy, the National Parks Conservation 
Association, the Leelanau Conservancy, Friends of the Crystal River and 
the Michigan Land Use Institute, as well as the members of the Senate 
and the House who represent the area.
    S. 808 would expand the boundaries of Sleeping Bear Dunes National 
Lakeshore to include the 104 acres of Crystal River property and to 
authorize the National Park Service to purchase this property from the 
owners of the Homestead Resort, preserving the land from development. 
In fact, the Senate FY2004 Interior Appropriations bill includes $1 
million for Sleeping Bear Dunes for this and other land acquisitions, 
so that this purchase can move forward quickly once this bill is signed 
into law.
    Sleeping Bear Dunes National Lakeshore with its remarkable geology 
and critical habitats is a true treasure for the people of Michigan, 
and the Crystal River property will be a welcome addition to this 
beautiful lakeshore. I look forward to working with all the members of 
the Energy Committee to pass this legislation.
    Thank you.
                                 ______
                                 
   Prepared Statement of Hon. Conrad Burns, U.S. Senator From Montana
    I want to thank Senator Thomas and Senator Akaka for holding this 
hearing.
    As most people here know, the fee demo program was started in the 
Interior appropriations bill in 1995. That subcommittee--which I now 
chair--has modified and extended the program several times over the 
years.
    With each extension, there has been increasing recognition that the 
program ultimately warrants consideration and oversight by the 
authorizing committees of jurisdiction. The appropriations committee, 
however, has been understandably reluctant to let the program simply 
expire with no guarantee that the authorizing committees will deal with 
the issue. It's been a bit of a Catch-22.
    But I think we're now at the point where we have enough experience 
with the program for this committee to take action--one way or the 
other. Senator Dorgan and I have written Senator Domenici and Senator 
Bingaman asking that this committee do exactly that during this 
Congress.
    The program currently is slated to expire at the end of FY 2004. 
The House Interior bill contains a two year extension, while the Senate 
bill contains no extension. At some point this fall we'll have to 
reconcile those positions. I think the further along this committee can 
get in its deliberations, the easier it will be for the appropriators 
to make the right decision.
    Finally, Mr. Chairman, I note that your bill authorizes the fee 
demonstration program for the National Park Service only. I know there 
have been concerns about how the program has been implemented by some 
of the other land management agencies. I share some of these concerns, 
and perhaps we'll get into some of those issues today.
    But as Chairman of the Interior appropriations subcommittee, I do 
need to simply point out that letting the program expire will not be 
without consequences. For the National Park Service, we'd be talking 
about $100 million per year in funds that would no longer be available 
for park projects. For the Forest Service, the amount is greater than 
$30 million. The amounts for BLM and Fish and Wildlife are smaller, but 
significant to those agencies.
    I can't assure anyone that these funds will be replaced by 
appropriated dollars. In fact, they likely won't be. While money 
shouldn't be the only thing that we focus on as we consider this issue, 
my colleagues need to be aware of what's at stake.
                                 ______
                                 
      Prepared Statement of Hon. Bart Stupak, U.S. Representative 
                             From Michigan
    Mr. Chairman and Ranking Member Akaka. Thank you for the 
opportunity to submit my comments for the record.
    Senator Levin's legislation, S. 808, would accomplish the goal of 
allowing the National Park Service to acquire nearly 105 acres of land 
along the Crystal River adjacent to the Sleeping Bear Dunes National 
Lakeshore. S. 808 would facilitate the preservation of this rare and 
valuable land by allowing the National Park Service to add this 
property to the Sleeping Bear Dunes National Lakeshore and at the same 
time would fairly compensate Bayberry Mills, Inc.--a company affiliated 
with The Homestead, a large and well-known resort--for their property.
    I have a particular interest and a high degree of familiarity with 
the Sleeping Bear Dunes National Lakeshore and Bayberry Mills' property 
because for the last ten years it was located in my Congressional 
District. It is a land of majestic beauty and is a valuable 
environmental contribution to the area which lies along the pristine 
Crystal River.
    For more than seventeen years there has been controversy about 
development along the Crystal River. Several proposals for development 
by the property owners have met with bitter opposition by 
environmentalists and some in the local community. There have been 
plans to build a golf course and develop home sites on the property. 
There was also a proposal to swap the property for lands within the 
Sleeping Bear Dunes National Lakeshore. That, too, aroused controversy.
    We must be grateful to Bayberry Mills and The Homestead for not 
developing this acreage and for their willingness to work with the 
National Park Service and our committees to preserve this land. 
However, now is time to purchase this property and allow The Homestead 
to move on with their other plans.
    Last year, I introduced legislation to allow the federal government 
to purchase the land for inclusion into the Sleeping Bear Dunes 
National Lakeshore. This year, Congressman Dave Camp who now represents 
the area in the House and Senator Levin in the Senate have introduced 
similar legislation, which I fully support. This legislation has 
garnered the support of Bayberry Mills, the Park Service, the local 
community, and many of those in the environmental community who opposed 
previous development plans for the property.
    Mr. Bob Kuras, President of Bayberry Mills, is to be commended for 
his willingness to complete this sale and Congress needs to act quickly 
to take advantage of the opportunity.
    I truly believe that this legislation is the only solution to a 
seventeen year-old dispute and it is extremely important that the 
Senate and the House act quickly so we can have closure on this issue. 
The Park Service will benefit greatly by having the property included 
in the Lakeshore, the local communities will support this purchase, and 
Bayberry Mills will be fairly compensated for their property. This is a 
win, win, win situation and I strongly urge you to pass S. 808.
    Thank you.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to comment briefly on three bills under 
consideration this afternoon.
    S. 1107 is your legislation to provide the National Park 
Service with permanent authority to charge visitor recreation 
fees and to use the revenues from those fees for a variety of 
purposes. Although the implementation of the Recreation Fee 
Demonstration Program has been controversial in some areas, I 
believe there is general public support for its use within the 
National Park System.
    In Hawaii, Mr. Chairman, fee revenues now account for a 
considerable portion of the budget of two of our most visited 
national parks, Hawaii's volcanos and Haleakala National Parks. 
Together, those two parks now collect over $5 million annually 
in fee revenues, which has helped to defray costs for 
maintenance needs and provide important interpretative and 
visitor-safety needs.
    As we consider permanent fee authority, we must ensure that 
fees remain equitable. We also need to deal with the fee issue 
for all affected agencies.
    I understand that the chairman and ranking member of the 
Senate Interior Appropriations Subcommittee have written to the 
committee urging that we take definitive action to either 
authorize or terminate the Fee Demo program for the affected 
agencies. I think they make a good point. Either we should 
authorize an agency to charge fees or we should make clear that 
the authority will be terminated. I hope we can avoid the 
annual extension of the recreation fee program as part of the 
appropriations process, for this creates uncertainty for the 
affected agencies and the public and is not conducive to 
responsible long-term planning.
    Mr. Chairman, with respect to H.R. 620, the Yosemite school 
bill, I know this is an important issue to both Senator 
Feinstein and Congressman Radanovich. And I remember from last 
year's hearing on this issue that the funding for schools 
around Yosemite National Park is a significant problem. I 
believe it is also important that the committee consider 
carefully whether even a small part of the national park's 
operating fund should be used for important but non-park 
purposes, and whether enactment of this bill will lead to 
similar requests for non-park use of revenues from other 
national parks around the country.
    Finally, Mr. Chairman, with respect to S. 808, the addition 
of the Sleeping Bear Dunes National Lakeshore, in Michigan, 
although I'm not surprised by the administration's request to 
defer action on the bill, it seems that this addition is 
necessary to protect the property from development.
    Mr. Chairman, I look forward to hearing more about these 
bills from our witnesses, and add my welcome to the witnesses.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    The ranking member of the committee, Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman.
    Let me just say a few words about a couple of the bills.
    With respect to S. 1107, to authorize a permanent fee 
program for the National Park Service, I would favor us doing 
something by way of authorizing legislation, not only with 
regard to the Park Service, but the other agencies, as well. 
The Fee Demo authority was established in the appropriations 
bill, and has been extended each year. I think it's appropriate 
that we take action to deal with it.
    I am concerned that it is unwise for us to give unlimited 
authority in this area without some limitations. Public use of 
the public lands could, in fact, be reduced as a result of 
increased fees being imposed. I'm concerned that there may be 
incentives for some of these agencies to charge fees for uses 
of the land that have never been charged for before. I hope we 
can deal with that.
    With regard to the Yosemite National Park bill, Congressman 
Radanovich's bill, this is an issue we dealt with in the last 
Congress. I had some concerns then. We amended the bill then, 
and sent the bill back with amendments. I gather those were not 
acceptable to the House, because the bill died.
    I'm still concerned with the premise of diverting a portion 
of the Parks operating revenues for another purpose, even 
though it's a worthy purpose. I think the notion that we would 
pass an authorization, sort of, on a park-specific basis, 
saying that, in this particular case, the park can go ahead and 
use the funds appropriated for operation of the park for 
something other than operation of the park, concerns me as a 
precedent and the effect that that has. It seems to me to run 
contrary to the way funds are authorized and appropriated 
generally, and it also runs contrary to what I hear from the 
administration all the time about how there aren't enough funds 
in the Park System. They resist every effort we make to add 
additional items to the Park System on the basis that we don't 
have enough funds to maintain what we've got. Now here they're 
saying, ``No, no. We don't need all the funds that are provided 
for this park. Let's use them for education,'' which, as I say, 
is a worthy purpose, but I have a real problems with the 
precedent.
    So, with those comments, I look forward to hearing the 
testimony.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you, sir.
    The Senator from Montana.
    Senator Burns. I have no statement.
    Senator Thomas. Thank you, sir.
    Thank you, glad to have you here, gentlemen. And we'll go 
ahead.
    Senator Levin, if you'd like to begin.

          STATEMENT OF HON. CARL LEVIN, U.S. SENATOR 
                         FROM MICHIGAN

    Senator Levin. Thank you very much.
    Mr. Chairman, members of the subcommittee, thank you for 
allowing us to present our bills this way. I will be very, very 
brief, and just summarize this bill as follows.
    Senator Stabenow and I have introduced a bill which would 
provide that the Park Service would acquire a little over a 
hundred acres of the land that is next to the Sleeping Bear 
Dunes Lakeshore. It is a unique, pristine piece of land, which 
has been the subject of huge contention and legal battles for 
almost 20 years.
    We're always struggling with trying to find the right path 
between development and conservation. We all have that in our 
home States constantly. That battle has been going on with this 
particular piece of land, between the owner, the developer, and 
many of the neighbors here who want this land to be part of the 
national park. There have been various proposals--to make it 
into a golf course, to have land swaps. It has been ongoing for 
almost two decades.
    Now the agreement has been reached with the developer that 
he would offer this for sale to the national park. He would not 
try to develop it, but that he would offer it for sale. This 
opportunity will not last forever. He has got a vacant piece of 
land. He needs to do something and wants to do something with 
that land, understandably. And it is a real opportunity for us 
to expand, by about a hundred acres, an extraordinary park or a 
lakeshore which was created really with the leadership of 
Senator Phil Hart. I happened to see Senator Riegle here in the 
audience and had a chance just to say hi to him. But he was 
instrumental, when he was here, in advancing the cause of this 
lakeshore. And now adding a hundred acres--from a willing 
seller, I emphasize--of a very contentious parcel would really 
be a huge plus for this boundary of the park.
    I would hope that this subcommittee would approve it. 
There's a comparable, a companion, bill in the House, which 
Representative Camp and Stupak have introduced, and it is a 
bipartisan effort and an essential effort to finally put to 
rest a very contentious debate over some very pristine property 
which really belongs in this lakeshore.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Levin follows:]
   Prepared Statement of Hon. Carl Levin, U.S. Senator From Michigan
    Thank you for giving me the opportunity to testify before the 
committee about this important legislation.
    For nearly 20 years, conservation groups have worked to preserve 
this land. In 1986, the Homestead Resort (Bayberry Mills Properties) 
announced plans to construct a golf course along the Crystal River in 
Leelanau County adjacent to Sleeping Bear Dunes National Lakeshore. The 
Resort and a local conservation group, the Friends of the Crystal 
River, entered into a protracted legal battle over the permitting 
process. In 1996, in an effort to end this decade long controversy, it 
was proposed that the Homestead Resort swap lands within Sleeping Bear 
Dunes National Lakeshore for property along the Crystal River. This 
proposal generated strong public opposition from local conservation 
groups and, as a result, never took place.
    Late in 2001, the Homestead Resort approached the National Park 
Service for consideration of a revised land swap proposal. This 
proposal was again met with considerable public opposition and pulled 
from consideration.
    In an effort to resolve this long standing dispute, the Homestead 
Resort entered into discussions with the Leelanau Conservancy and the 
Friends of the Crystal River regarding a direct purchase of the Crystal 
River property. These discussions led to Senate Bill 808. It is 
important to note that S. 808 takes into consideration not only the 
preservation of this pristine stretch of River, but also protects the 
interests of the private property owner. The boundary of the Park will 
only be changed contingent on the willing sale of the property.
    I am encouraged that groups which have been in opposition for two 
decades are working towards a common goal. Senate Bill 808 is not only 
essential to preserving this land for generations to come, but also for 
ending two decades of contention. I look forward to working with the 
Committee to pass this important legislation.

    Senator Thomas. Thank you, sir.
    Congressman Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Senator Levin. Could I interrupt you?
    Mr. Radanovich. Oh, sure.
    Senator Levin. Forgive me, Congressman, just one second. 
I'm wondering if I might be excused because of a prior problem 
that I must address, which I have shared with the chairman.
    Senator Thomas. Does anyone have a question for the 
Senator?
    Yes, sir, you may be excused.
    Senator Levin. Thank you. Thank you all.
    Senator Thomas. Thank you very much for being here.
    Senator Levin. I would ask that two statements be 
incorporated in the record. The former head of the National 
Park Service, Mr. Ridenour, as well as the Friends of the 
Crystal River have asked that these statements be made part of 
the record.*
---------------------------------------------------------------------------
    * The statements can be found in the appendix.
---------------------------------------------------------------------------
    Senator Thomas. They will be included in the record.
    Senator Levin. Thank you so much.
    Senator Burns. Do you have maps of this area?
    Senator Levin. We do. We will provide those to you.
    Senator Thomas. Congressman.

            STATEMENT OF HON. GEORGE P. RADANOVICH, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman, and also ranking 
member Akaka. I appreciate the opportunity to come before you 
to talk about my bill, H.R. 620, which would provide 
supplemental financial assistance to three small schools in my 
district, which are within Yosemite National Park, and they are 
located in Yosemite Valley, El Portal, and Wawona, all within 
the National Park Service.
    This is the second appearance before this subcommittee. As 
Senator Bingaman had mentioned, we were here testifying last 
year. The bill was amended in the Senate in three ways One, we 
have reduced the amount of the request from $750,000 to 
$400,000. We've reduced the length of the authority from seven 
to five years, and also restricted funds from being used for 
construction purposes. So I have responded to the amended 
version and produced a bill that is satisfactory to the House.
    I would say that Yosemite is at risk of losing what few 
teachers it does have and its schools, since the flood of 1997. 
And also, with the implementation of the Yosemite Valley Plan, 
there will be less employees, both Park Service employees and 
concession employees, in the park. And since California bases 
its funding of schools on ADA, which is average daily 
attendance, those schools suffer because of the small number of 
students that are remaining there. Other California funding 
mechanisms of Impact Aid and PILT are available in California, 
but most is committed to other areas. And, as you well know, 
PILT has always been historically underfunded. In 2001, I was 
able to secure $110,000. But the schools that serve the Park 
Service employees and concessionaires deserve a much more 
reliable source of funding.
    The question was asked, ``Should Park Service be in the 
business of funding public schools?'' And I'm a big advocate of 
State's rights, certainly in education, in the funding of 
education, but there are a number of reasons why perhaps this 
shouldn't be the case. No. 1, the children are children of 
employees, Federal and park concession employees, so it's the 
responsibility of the Federal Government to, I think, make sure 
that their employees are provided a decent education. No. 2, 
these are isolated schools, where there really is no 
alternative. Many of you who come from mountain States realize 
that the terrain just does not make it possible, with driving 
time and roads that are sometimes hazardous in the wintertime--
makes it difficult for these students to obtain an education 
outside the park.
    It was mentioned during a hearing, too, last year, that 
this might be an entitlement that we were giving, and I would 
respond by saying that it is not. This is discretion given only 
to the Yosemite National Park superintendent with appropriated 
funds. And so the Park Service superintendent would have the 
discretion to take care of that.
    And I also would add that there is precedent for this. This 
was done many, many years ago in Yellowstone National Park for 
the same purpose, and that was in order to draw qualified 
employees into the National Park System in these isolated 
parks, somewhat isolated. And also in order to attract highly 
qualified personnel for the concession services, there needed 
to be the provision of a good quality education. And I think 
that kind of places the burden on the Park Service to step 
forward here in this case.
    I might add, too, that this is a case for some of the other 
more isolated parks, like Glacier and some of the others in the 
park system.
    I would also add, too, that this bill provides an 
opportunity for the park to spend park resources outside the 
park boundaries in support of park activities, including 
transportation and visitor center, which is consistent with the 
Yosemite Valley plan.
    With that, I end my testimony, and I'm certainly available 
to answer any questions you might have.
    [The prepared statement of Mr. Radanovich follows:]
             Prepared Statement of Hon. George Radanovich, 
                  U.S. Representative From California
    Chairman Thomas and Ranking Member Akaka. Thank you for the 
opportunity to appear before you today in support of H.R. 620, 
legislation I reintroduced this year to authorize the Secretary of the 
Interior to provide supplemental financial assistance to three small 
schools located within Yosemite National Park--schools that were 
established to serve the children of park and concession employees. Mr. 
Chairman, as you will recall, the three schools are Yosemite Valley, 
which serves 42 students K through eight with three teachers; El Portel 
Elementary, which serves 53 elementary students with three teachers and 
6 high school students with 2 teachers, and Wawona Elementary, which 
serves 16 children in grades K though eight with only one teacher.
    As you know, this is my second appearance before the National Park 
Subcommittee on this important legislation. During the 107th Congress, 
similar legislation passed the House, was amended by the Senate, and 
then sent back to the House for consideration. Unfortunately, the House 
failed to take action on the bill prior to adjournment. If you recall, 
during negotiations with this Committee last year, I agreed to lower 
the authorization level from $750,000 to $400,000 and reduce the number 
of years for the authorization authority. I also restricted funds from 
being used for new construction, construction contracts, or major 
capital improvements. Thus, funds would be limited to classroom 
teaching, maintenance and general upkeep. Realistically, the amount of 
money that the park superintendent would be authorized to use towards 
these schools would be minimal.
    As I have said before, without this critical assistance the 
children of park employees could lose the few teachers they have as 
well as their schools. These schools are in a unique and equally 
difficult situation. In California, operating funds for schools are 
based on an average daily attendance. Since the 1997 devastating Merced 
River flood, there has been a continued reduction in the number of park 
and concession employees residing in the park, and thus fewer school 
children attending schools. With fewer and fewer children attending 
these schools, fewer state dollars are committed. The result is the 
superintendent of Yosemite National Park and the concessionaire serving 
park visitors are attracting less than qualified candidates to work in 
the park because families are not provided with adequate schools. 
Though other Federal funding sources such as Impact Aid and PILT are 
available in Mariposa and Madera counties, where these schools exist, 
the reality is that most of these funds are fully committed, and thus 
very few dollars are actually make it to these schools.
    In light of these realities, I was able to secure $111,000 through 
the appropriations process in 2001. However, as you know Mr. Chairman, 
going to appropriators every year for critical assistance is not the 
most productive approach.
    At this point, Mr. Chairman, I would like to address perhaps the 
most important issue surrounding this legislation. Should the National 
Park Service ``be in the business'' of financing public schools? First, 
let me say for the record, that I believe the financing of public 
schools is and should remain the primacy of the states. However, in the 
unique case before you, these students are children of Federal and 
concession dependent employees. The employees are assigned Federal 
tasks and are not state workers. Furthermore, due to the isolation of 
these schools, there are no viable alternatives; transporting these 
children to an alternative school over two hours away on winding 
mountain roads is just not acceptable. I believe it is our 
responsibility to ``step up to the plate'' now, and demonstrate that we 
believe the children of park employees deserve a quality education and 
that they should not be deprived of that right simply because their 
parents have been assigned to work in Yosemite National Park.
    In a related matter, Mr. Chairman, I know that you are very 
concerned over the precedent this legislation may set with other 
isolated units of the Park System such as Glacier, Big Bend and Grand 
Canyon National Parks. Notwithstanding the federally funded schools in 
Yellowstone National Park, there are some public schools in parks and 
perhaps we ought to look at these few instances to see if we have a 
Federal interest in changing the way we provide this service.
    Finally, I would just like to leave the committee with this though 
. . . since eliminating the Taliban from Afghanistan, millions of U.S. 
taxpayer dollars have been used to re-establish schools in Afghanistan. 
Surely, if we are willing to spend millions of dollars in Afghanistan, 
we can support the authorization to spend a lot fewer dollars for 
schools in the United States.
    Again, thank you for this opportunity. I am prepared to answer any 
questions that you may have.

    Senator Thomas. Questions?
    Senator Burns. How far is it to an alternative school, 
should we lose those schools inside the park?
    Mr. Radanovich. Wawona is about a 20-mile ride to the 
nearby community of Oakhurst, over mountain roads. Yosemite and 
El Portal are probably--that is over an hour ride from Yosemite 
Valley to the Mariposa schools is--the longer one being 
Yosemite--is about an hour and--it would be an hour-and-a-half 
bus ride, one way.
    And these are steep roads. I mean, the ones between 
Yosemite--that comes out of Highway 140, through El Portal and 
to Mariposa, although we've spent money recently upgrading the 
roads, are subject to landslides. And these are landslides 
with, you know, granite boulders the size of railroad boxcars. 
I mean, they can be hazardous in the wintertime.
    Senator Burns. Well, we know something about remote areas. 
We've still got a----
    Mr. Radanovich. You've got a few.
    Senator Burns. Maybe you'll have to consider a boarding 
school, you know. We've still got one of those, you know.
    Mr. Radanovich. Is that right?
    Senator Burns. When you take your kids to high school 
Monday morning, you don't see them until Friday night after the 
basketball game's over.
    Mr. Radanovich. Well, in high school, most of----
    Senator Burns. Some parents would think that was a good 
thing.
    Mr. Radanovich. In high school, most of the students do 
travel that trip, at the high school level. There are probably 
about six students in high school in El Portal. But this is K 
through 8.
    Senator Burns. Okay.
    Senator Thomas. It's my understanding that the residents in 
the park in government housing pay property tax to the State--
to the county. Is that right?
    Mr. Radanovich. They pay a tax--of course, they don't pay a 
tax on the land, but the improvements, if they do have housing 
inside the valley, yes.
    Senator Thomas. Which is designed to help support schools, 
I presume.
    Mr. Radanovich. True.
    Senator Thomas. Among other things.
    Mr. Radanovich. Yes.
    Senator Thomas. The government repays them, but I guess 
that's sort of interesting, that they already pay a fee into 
the school area on their property, which is government 
property.
    Mr. Radanovich. True. And, unfortunately, the way those 
funds are allocated back to the schools is under the ADA, or 
the average daily attendance rates. So the fact that there are 
not a large number of students there makes it difficult for the 
schools to provide that quality education.
    Senator Burns. How big are those schools?
    Mr. Radanovich. In Yosemite Valley, it's 42 students, K 
through 8. El Portal is 53 students, K through 8, with six 
students in high school. And then Wawona, it's 16 students, K 
through 8.
    And, again, it's difficult for the Park Service and the 
concessionaires to obtain highly qualified personnel if their 
kids need to be bused, you know, hour, hour-and-a-half to 
schools, and so it's--I think it's upon the Park Service to 
make sure that if they're going to provide a quality experience 
for visitors in these parks, they've got to step up to the 
plate on the education.
    Senator Thomas. Do you ask them for a special appropriation 
to do this? My understanding in Yellowstone it's paid out of 
the parks regular funds and their demonstration fees.
    Mr. Radanovich. To my knowledge, it was done the same way 
that we were asking, and that was through the discretion of the 
park superintendent. I could be wrong.
    Senator Thomas. Well, it's not a special appropriation. 
Your bill calls for appropriation, I believe.
    Mr. Radanovich. No, actually it just allows--it gives the 
park superintendent the flexibility to spend up to a certain 
amount. Now, if the superintendent doesn't want to do this, he 
doesn't have to, but this is supported by the Park Service 
and----
    Senator Thomas. An appropriation in 2001.
    Mr. Radanovich. Yes. That's what I'm trying to avoid. 
That's the way we did it in the past. But, as you know, that's 
something that you can or cannot get every year, and I'm trying 
to make it a little bit more consistent.
    Senator Thomas. So the park's willing to pay for this out 
of their current amount of money.
    Mr. Radanovich. The Park Service does support this, yes. 
And typically the amounts would more likely be the 110,000, 
somewhere around there. But it would be to the park 
superintendent's discretion. He's going to be fully aware of 
their other responsibilities, monetarily.
    Senator Thomas. Okay. Any others? If not, thank you, sir.
    Mr. Radanovich. Thank you, Senator.
    Senator Thomas. We appreciate your participation.
    Mr. Radanovich. Thank you.
    Senator Thomas. Okay.
    Our panel 1, Lynn Scarlett, Assistant Secretary for Policy 
and Management of the Budget, Department of the Interior, and 
Richard Ring, Associate Director, Administration, Business 
Practices, and Workforce, National Park Service.
    All right. Thank you very much. Madam Secretary, would you 
like to go right ahead?

STATEMENT OF P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY, 
       MANAGEMENT, AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Thank you very much.
    Mr. Chairman and members of the committee, thank you very 
much for the opportunity to present the Department of the 
Interior's views on S. 1107, a bill to enhance the Recreation 
Fee Demonstration Program for the National Park Service.
    I would like, first, to say, Mr. Chairman, that we applaud 
your leadership in building the foundations of a strong 
recreation fee program. The Department supports S. 1107, if 
amended to provide interagency authority and to address other 
issues that I will identify in this testimony. We believe the 
recreation fee program is vital to our ability to manage lands 
for the benefit of visitors and enhance the recreation 
facilities available to them, including our ability to address 
the maintenance backlog challenges in the park and other of our 
land agencies.
    Authorization of a permanent program would allow the 
agencies, we think, to better serve visitors by making long-
term investments, by streamlining the program, and by creating 
more partnerships as we implement the fee program. Federal land 
programs, as we all know, have provided Americans and visitors 
from around the world special places for recreation, education, 
reflection, and solitude. Fulfilling this mission does require 
that we have adequate and steady funding and that we're able to 
invest in visitor-servicing facilities.
    The Fee Demo program, we think, allows agencies to retain a 
majority of recreation fees at the site collected, and, 
thereby, reinvest those in enhancing visitor facilities and 
services.
    Our testimony today and suggested amendments result from 
extensive analysis of a Recreation Fee Leadership Council, 
which I chair, along with Mark Rey, from the Forest Service or 
the Department of Agriculture, and all of our other assistant 
secretaries and our bureau directors of our land-management 
agencies. It would authorize--S. 1107 would authorize the 
Secretary to establish, modify, charge, and collect recreation 
fees for the National Park Service, provided they meet certain 
criteria.
    I want to underscore that we completely agree with the 
criteria. In fact, they are very similar to guiding principles 
that we have worked on and proposed through our Recreation Fee 
Leadership Council. We believe, according to those criteria, 
that fees should be beneficial to the visiting public, they 
should be fair and equitable, they should be efficiently 
collected and operated, they should be consistent, they should 
be implemented collaboratively across our agencies, they should 
be convenient, and they should provide for accountability to 
the public through transparent reporting.
    S. 1107 would authorize recreation fee authority for the 
National Park Service. The recreation fee program is, we 
believe, a key component in the National Park Service's ability 
to provide quality visitor experience.
    Just to give you a flavor of how important these fees are, 
in 2002 the National Park Service collected $125.7 million in 
recreation fee demonstration revenue, obligated $102 million, 
or 81 percent of the total, for projects that include 
maintenance backlog, encouraging volunteer services, providing 
accessibility to visitors with disabilities, protecting natural 
resources associated with visitor use, and enhancing safety.
    Mr. Chairman, we appreciate the strong support that this 
committee has given to the Park Service. The Park Service has 
built a successful program, and deserves a permanent recreation 
fee program. However, we do believe that an interagency fee 
program makes sense and would significantly enhance our ability 
to serve the American public at recreation sites on national 
public lands.
    We have found, in some nine surveys and other interviews 
with the public, that they don't often distinguished between 
lands managed by different Federal agencies. We urge that S. 
1107 be amended to provide for interagency recreation fee 
authority.
    Let me just give you a sense of the patterns of recreation 
on our Federal lands. I have a little show-and-tell here, this 
chart, which shows the percent increases in recreation. And you 
see--the red line being increases in recreation on Bureau of 
Land Management lands, the blue line being refuge visitors, and 
the green line being the continued increase in park visitation.
    Since 1985, recreation demand has increased about 65 
percent on BLM lands, and 80 percent in our wildlife refuges. 
Over the same time period, Bureau of Reclamation estimates an 
increase of 10 million recreation visitors, for a total of 90 
million visits to their 288 lakes. With this increase in 
visitation is an increase in visitor demand for adequate 
visitor facilities and services. We find our visitors don't 
distinguish among Federal land-management agencies. They expect 
to find the same amenities--hosted campgrounds, permanent 
toilet facilities, potable drinking water, docking facilities, 
and so forth.
    We agree that the geographic and logistical characteristics 
of some locations make collection of rec fees not feasible or 
not desirable in some areas; but rather, in other areas they 
are feasible and desirable.
    But we think the relevant policy question regarding rec 
fees is not the label on the unit, the particular land unit, 
but rather whether there are enhanced recreation facilities at 
that site. We have a number of sites, and we've got some show-
and-tell we can turn to in the questions, that show some of the 
sites at BLM and the refuges where we do charge fees.
    S. 1107 would also allow for modifications of the National 
Park Passport. For reasons that include some of the issues I've 
raised before, we propose creating a new annual interagency 
pass that would consolidate all of the existing passes. We 
think the National Park Passport developed, Senator, by you 
some years ago, is an excellent model, and we would like to 
expand on its successes.
    In the Department's testimony before this committee during 
the 107th Congress, we also proposed addressing one of the key 
issues of concern that some visitors have raised, and that is 
some confusion about types of fees. And we have proposed 
creating a different type of system, moving beyond the entry 
and use fees to basic and expanded fees. We think our approach 
would provide clarity, and it would include restrictions to 
ensure that the visiting public would not be charged if the 
agency is not making certain investments in visitor services.
    The Departments of the Interior, and Agriculture, based on 
our experiences over the last several years through this 
demonstration project, have made numerous adjustments to 
standardize classification of fees to decrease visitor 
confusion, remove fees from areas where they turned out not to 
be feasible or effective.
    Another important consideration, of course, is fee levels, 
and we are committed to fair and equitable fees. Recreation 
fees, of course, do represent a small percentage of out-of-
pocket costs that an average family spends on a typical 
vacation. Nonetheless, we think it's important to have 
processes to ensure that they remain fair and equitable.
    We also think it's an opportunity as we move forward with 
exploring permanent fee authorization provisions that would 
allow for greater collaboration with local communities. We have 
one example of a type of partnership that could flourish under 
such collaboration in a permanent fee program, and that is the 
Sand Flats agreement developed by BLM in the gateway community 
in Moab, Utah.
    S. 1107 would also authorize the Secretary to enter into 
revenue-sharing agreements with States to accept their State 
annual passes. While we look forward to working with States in 
cooperation, we would recommend some amendments to the 
provision. We think unless the pass is priced appropriately--
simply splitting total revenues, for example--collected based 
on price of existing State passes might result in a net loss 
for Federal and State parties. The pie would be smaller for 
both.
    Also, we're concerned that the provision would break the 
direct link between the site of collection and the site where 
the fees are expended. We have found, in all of our interviews 
of the public, that this link is the key rationale that garners 
public support for the recreation fee program.
    The Department and the USDA, as I noted, are currently 
considering many upgrades to the program, including a hologram 
that would allow an upgrade to the Golden Eagle Passport to 
apply to particular State parks.
    I want to conclude by noting that S. 1107 would require the 
Secretary to analyze certain criteria with regard to fee 
levels, and transmit that that analysis to Congress, published 
notice, and various other provisions. The bill would require 
the Secretary to submit a report to the Congress on the status 
of the recreation fee program.
    I want to underscore that we strongly support the reporting 
requirements. We think that transparency is critical to 
success. We would, however, like to work with the subcommittee 
to craft reporting and cost-of-collection provisions that we 
think meet both Congress' needs and the needs of the public 
while taking into account certain administration 
considerations.
    Establishing a permanent program does not, of course, mean 
that learning ends. We support a dynamic recreation fee 
program. We believe S. 1107, with the amendments suggested in 
my testimony, would create such a dynamic program. A permanent 
program would allow the Department to make long-term 
investments, improve efficiencies, initiate more partnerships, 
and serve the public.
    We look forward to working with you, and I look forward to 
answering your questions.
    Thank you.
    [The prepared statement of Ms. Scarlett follows:]
Prepared Statement of P. Lynn Scarlett, Assistant Secretary for Policy, 
           Management and Budget, Department of the Interior
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1107, a bill to enhance the 
Recreational Fee Demonstration program for the National Park Service. 
We thank the Subcommittee for the opportunity to discuss this very 
important issue.
    The Department supports S. 1107 if amended to provide interagency 
authority and to address other issues identified in this testimony. The 
recreation fee program is vital to our ability to provide quality 
recreational facilities and services. It significantly enhances the 
Department's efforts to support the President's initiative to address 
the deferred maintenance backlog at our National Parks and enables us 
to better manage other federal lands. Authorization of a permanent 
program would allow the agencies to better serve visitors by making 
long-term investments, streamlining the program, and creating more 
partnerships.
    Our federal lands boast scenic vistas, breathtaking landscapes, and 
unique natural wonders. On these lands, many patriotic symbols, 
battlefields, memorials, historic homes, and many other types of sites 
tell the story of America. Federal lands have provided Americans and 
visitors from around the world special places for recreation, 
education, reflection and solace. The family vacation to these 
destinations is an American tradition. We want to ensure that the 
federal lands continue to play this important role in American life and 
culture. Fulfilling this mission requires that we maintain visitor 
facilities and services, preserve natural and historic resources, and 
enhance visitor opportunities. Such efforts require an adequate and 
steady source of funding.
    Although recreation fees date back to 1908, Congress first 
established broad recreation fee authority in 1965 under the Land and 
Water Conservation Fund Act (LWCFA). In enacting this authority, 
Congress acknowledged that the visitors to federal lands receive some 
benefits that do not directly accrue to the public at large and that 
charging a modest fee to that population is both equitable and fair to 
the general taxpayer. In 1996, Congress took that idea one step further 
when establishing the Recreation Fee Demonstration (Fee Demo) program 
for the National Park Service (NPS), the Bureau of Land Management 
(BLM), the U.S. Fish and Wildlife Service (Fish and Wildlife Service), 
and the U.S. Forest Service (Forest Service). During the 105th 
Congress, a House Appropriations Committee Report noted that the Fee 
Demo program was developed in direct response to the federal agencies' 
concern over their growing backlog maintenance needs. Thus, the Fee 
Demo program allowed participating agencies to retain a majority of 
recreation fees at the site collected and reinvest those fees into 
enhancing visitor facilities and services. This authority was 
deliberately broad and flexible to encourage agencies to experiment 
with their fee programs.
    Our testimony today and suggested amendments to S. 1107 are the 
result of a great deal of analysis and discussion through the 
Interagency Recreation Fee Leadership Council (Fee Council), which was 
created last year to facilitate coordination and consistency among high 
level officials of the Department of the Interior and U.S. Department 
of Agriculture (USDA). These concepts were developed from the lessons 
we have learned in administering the Fee Demo program.
    S. 1107 would authorize the Secretary to establish, modify, charge 
and collect recreation fees for the National Park Service, provided 
that they meet certain criteria. We agree with these criteria, as they 
are similar to the guiding principles espoused by the Department. 
Through the Fee Council and in testimony before this Committee last 
Congress, the Department identified seven principles that are critical 
to a successful fee program. These guiding principles indicate that 
fees should be: 1) beneficial to the visiting public; 2) fair and 
equitable; 3) efficient; 4) consistent; 5) implemented collaboratively; 
6) convenient; and should 7) provide for accountability to the public. 
The Department has committed to applying these guiding principles to 
any administrative or legislative effort concerning the recreation fee 
program.
                 an interagency recreation fee program
    S. 1107 would authorize recreation fee authority for NPS. The 
recreation fee program has been a key component in the National Park 
Service's ability to provide a quality visitor experience. In FY 2002, 
NPS collected $125.7 million in recreation fee demonstration revenue 
and obligated $101.9 million or 81 percent of the total for projects 
that include addressing the deferred maintenance backlog, 
rehabilitating historic structures, encouraging volunteer services 
through the Public Land Corps, providing accessibility to visitors with 
disabilities, protecting natural resources, improving interpretive 
exhibits, and enhancing the safety of the visitors. In addition, NPS 
collected $21.7 million from the National Park Passport and other 
recreation fees. Over the life of the program, NPS has approved $457 
million in projects to address the deferred maintenance backlog. NPS 
also has made efforts to continually improve the administration of the 
recreation fee program by implementing software upgrades, automated 
technologies for fee collection, and modern banking systems, and 
seeking out opportunities to collaborate with other agencies. NPS is 
improving its ability to target recreation fees to the highest priority 
projects by monitoring and prioritizing ongoing maintenance needs 
through the establishment of the Facility Management Software System.
    Mr. Chairman, we appreciate the strong support and that this 
Subcommittee has given to the National Parks. We agree that the 
National Park Service has built a successful program and deserves a 
permanent recreation fee program. Experience has shown us, however, 
that an interagency fee program makes sense and would significantly 
enhance our ability to serve the American public at recreation sites on 
national public lands. We have found that the visiting public does not 
distinguish between lands managed by different federal agencies. 
Enhancing coordination among agencies is extraordinarily important in 
creating a sensible, efficient, and coherent fee program with seamless 
services that is well-understood by the public. Thus, a critical 
component of the Department's support of S. 1107 is that it be amended 
to provide for interagency recreation fee authority.
    The basis for establishing a recreation fee program for National 
Parks also exists for other federal agencies. The pattern of recreation 
on our federal lands has changed dramatically. National Parks continue 
to be a destination favorite for American families. However, more than 
ever before, Americans also are choosing to recreate on lands managed 
by other federal agencies such BLM and the Fish and Wildlife Service. 
Since 1985, recreation demand has increased approximately 65 percent on 
BLM lands and 80 percent on National Wildlife Refuges. Over the same 
time period, the Bureau of Reclamation estimates an increase of 10 
million recreation visits for a total of 90 million visits to their 288 
lakes. With this increase in visitation is an increase in visitor 
demand for adequate visitor facilities and services. Because our 
visitors do not distinguish among federal land management agencies, 
many expect to find the same amenities typically provided at National 
Parks, including hosted campgrounds, permanent toilet facilities, and 
potable drinking water. This increase in visitor use on these other 
federal lands also creates a greater need to expend funds to protect 
natural and cultural resources--the resources that are often the very 
reason visitors are drawn to the particular site.
    Although the geographic and logistical characteristics of some 
locations make the collection of recreation fees easier than for 
others, we believe that the relevant policy question of whether 
recreation fee authority should be given to an agency is whether the 
visiting public would benefit from enhanced recreation facilities and 
other visitor services that would result from such fees being charged. 
Visitors to these other Department of the Interior lands, as well as 
lands managed by other agencies, such as the U.S. Forest Service, in 
other Departments have and should continue to benefit from enhanced 
facilities and services.
    Through the Fee Demo program, BLM and the Fish and Wildlife Service 
have invested recreation fees to meet visitor demands and improve the 
recreation experience. For example, the BLM's Lake Havasu Field Office 
in Arizona has used recreation fees to replace 50 leaking and 
deteriorating fiberglass outhouses with 36 block wall accessible 
restrooms. Recreation fees also contributed to the installation of 700 
feet of river bank block walls, which will help protect the newly 
constructed restrooms as well as stabilize the campsites' eroding 
shoreline. The Fish and Wildlife Service also has used fees to offer 
some unique opportunities to visitors. At California's Modoc National 
Wildlife Refuge, the Fish and Wildlife Service used recreation fees to 
benefit hunters and photographers by replacing an old hay bale blind 
with a new wooden, more accessible hunting and photo blind, complete 
with access ramp. At the National Elk Refuge, the Fish and Wildlife 
Service collects an Elk hunt permit recreation fee of $1 per hunter at 
the weekly hunter drawings in October, November, and December. These 
recreation fees are used to rent a fair pavilion building from the 
county to conduct refuge hunt orientation and permit drawings at the 
beginning of each hunting season. Hundreds of hunters attend each year. 
In addition, the modest recreation fee allows the Fish and Wildlife 
Service to purchase retrieval carts and sleds for the hunters' use and 
shooting sticks to encourage ethical hunting.
                 a new annual interagency national pass
    S. 1107 would allow for modifications of the National Park 
Passport. For reasons that include those above, we propose creating a 
new annual interagency pass that would expand the National Parks 
Passport to cover all participating agencies and would consolidate the 
Golden Passes established under the Land and Water Conservation Fund 
Act. We believe that the National Park Passport developed by Senator 
Thomas a few years ago is an excellent model for such a program. We 
would like to expand on its successes--the image competition as well as 
the modern marketing techniques, and innovative, administration 
provisions. By consolidating these passes, the interagency pass would 
decrease visitor confusion about passes and shift the emphasis to 
recreation opportunities on our federal lands rather than an agency-
centric view. We envision that the interagency pass would be provided 
to seniors at substantial discounts and to persons with disabilities 
free of charge. The interagency pass would retain the look and program 
qualities of the National Park Passport, and we would work to maintain 
the stream of revenue to NPS. As relevant data are collected, the 
distribution formula of interagency pass revenues would be periodically 
reevaluated through the Fee Council.
       standardizing recreation fees and minimizing fee layering
    S. 1107 would direct the Secretary to establish the minimum number 
of fees and avoid fee layering where possible. The Department supports 
this goal. One problem that has led to increased fee layering is the 
absence of clear definitions of what activities are covered by 
``entrance'' fees and those that are covered by ``use'' fees. This 
issue has been complicated by historical fee definitions in the LWCFA 
and differences among agencies in legislative fee authorities. The 
result has been that, at some sites, a use fee was established rather 
than an entrance fee, and at other sites, an additional use fee was 
charged for the primary attraction of the site when the activity should 
have been covered by an already-paid entrance fee. The lack of 
consistency among and within agencies has led to visitor confusion and 
some expression of frustration about fee layering and the related issue 
of when the Golden passes and the National Park Passport may be used.
    In the Department's testimony before this Committee during the 
107th Congress, we proposed addressing these concerns by creating a new 
system of ``basic'' and ``expanded'' recreation fees that would be 
consistently applied across all agencies and would minimize fee 
layering by ensuring that the basic fee covers the primary attraction 
of the site. Under this system, restrictions would be put in place to 
ensure that the visiting public would not be charged if the agency is 
not making a certain level of investment in visitor services. All 
passes established under this system would have covered the basic 
recreation fee at all sites.
    The Department and USDA have moved forward to administratively 
implement such a system. Although we are retaining the LWCF 
terminology, the agencies are making adjustments to standardize the 
classification of fees to decrease visitor confusion about the passes 
and minimize fee layering. For example, the Forest Service is expanding 
and clarifying the benefits of the Golden Passes to include 1800 
additional sites. The previous pass policy at those sites was extremely 
confusing: the Golden Eagle Pass was not accepted, Golden Age and 
Access passholders were given a 50 percent discount, while a regional 
pass, the Northwest Forest Pass, was accepted in full. While NPS 
currently accepts passes at a majority of its fee sites, six sites that 
established use fees for the primary attraction to the site now accept 
passes. In addition, NPS is evaluating 14 sites where use fees should 
possibly be converted to entrance fees and passes should be accepted.
    The Department would like to make as many efforts as possible to 
streamline the recreation fee system. However, our experience has shown 
that eliminating all fee-layering or what might better be thought of as 
tiered fees is neither fair nor equitable, especially for specialized 
services such as camping, reservations, enhanced tours, or group 
events. The notion behind charging a fee beyond the basic recreation 
fee is that certain recreation activities require additional attention 
by agency staff or involve costs that should not be borne by the 
general public through taxpayer funds or by the rest of the visiting 
public through the basic recreation fee. The system must balance 
fairness and equity principles by carefully considering the 
relationship between who pays and who benefits.
    Another important consideration is fee levels. The Department is 
committed to revaluating the recreation fees charged and their impact 
on low- and middle-class visitors. First, recreation fees represent a 
small percentage of the out-of-pocket costs that an average family 
spends on a typical vacation. Second, recreation fees are reasonable in 
comparison to those charged at other recreational activities. For 
example, in Jackson Hole, Wyoming, a family of four would pay $20 for a 
seven day pass to both Grand Teton National Park and Yellowstone 
National Park. In contrast, in Jackson Hole, the family would have to 
pay approximately $408 for two snowmobiles for a single day and $27.50 
for 2-3 hours of entertainment at a movie theatre.
            partnerships with states and gateway communities
    S. 1107 would authorize the Secretary to enter into agreements with 
public and private entities for visitor reservation services, fee 
collection or processing services. The Department supports this 
provision as it would allow us, among other things, to more vigorously 
seek out opportunities to engage gateway communities through the 
recreation fee program. Such efforts are consistent with Secretary 
Norton's ``Four C's''--Communication, Consultation, and Cooperation, 
all in the service of Conservation. Given our experience with 
cooperative decision-making within the Fee Demo program, we believe 
that any future fee program should foster collaborative opportunities.
    Through these partnerships, the Department and gateway communities 
can work together to promote tourism and to better serve visitors. One 
example of the type of partnership that could flourish under a 
permanent recreation fee program is the Sand Flats Agreement entered 
into in 1994 by BLM and the gateway community of Grand County, Utah. 
Sand Flats is a 7,000-acre BLM recreational area outside Moab, Utah. It 
is highly popular, particularly with mountain bikers. In the early 
1990s, its popularity increased so much that the BLM was no longer able 
to manage and police the area. Looking for a creative solution, BLM 
entered into a cooperative agreement with the county under which the 
county would collect recreation fees and use them to manage and police 
the highly popular recreational area. The county and its citizens have 
benefited from a more vigorous tourist trade; the BLM now has a 
signature recreation area; and visitors can safely enjoy the Sand Flats 
area. We believe that the Sand Flats Agreement is an excellent model of 
a mutually beneficial partnership and that the opportunity to craft 
these types of agreements exists across the country. With a permanent 
recreation fee program, we will be better able to make the necessary 
investments to identify and move forward on such opportunities.
    S. 1107 would authorize the Secretary to enter into revenue sharing 
agreements with states to accept their state annual passes at National 
Parks and would direct that the NPS' share of the fees be distributed 
equally to all NPS units in the states that are party to the revenue 
sharing agreement. The Department recommends amending this provision. 
While we support the creation of passes that might allow entry to both 
state and federal recreation sites, the provision as drafted presents a 
number of problems. To be viable from a business perspective, a 
combined federal-state pass would have to be priced to capture the 
appropriate level of value from both state and federal systems. Unless 
the pass is priced appropriately, simply splitting the total revenues 
collected based on the price of existing state passes is likely to 
result in a net loss for both federal and state parties the pie will be 
smaller for both federal and state parties. In addition, this provision 
would break the direct link between the site of collection and the site 
where a majority of the fees are expended. This link has served as the 
rationale for the recreation fee program and is strongly associated 
with the public's support of fees. Acceptance of a state pass to 
federal lands also presents valuation complications, including impacts 
on the value of federal passes, varying pricing and benefits of 
different state passes and related equity concerns with regard to 
residents of different states.
    The Department would prefer creating partnerships with states 
through a more flexible provision that would authorize cooperative 
agreements for regional multi-entity passes. Providing visitors and 
residents of nearby communities with a well-structured, appropriately 
priced, regional multi-entity pass would avoid these problems while 
allowing for benefits that could extend to other federal, state, and 
private entities. Recognizing that recreation areas and the visitors 
who enjoy them do not necessarily follow state boundaries, our 
experience has shown that regional multi-entity passes offer greater 
flexibility and can be tailored to meet identified recreational 
demands. One example of a successful regional pass is the Visit Idaho 
Playground (VIP) Pass, which covers all entrance and certain day-use 
fees at a variety of state and federal sites including those under the 
jurisdiction of the Idaho Department of Parks and Recreation, the Idaho 
Department of Commerce, the Bureau of Reclamation, USDA Forest Service, 
NPS, and BLM.
    Our proposed provision also could provide for another type of 
cooperative pass program similar to that provided in S.1107, but with 
fewer unwanted impacts to both the state and federal recreation fee 
programs. The Department and USDA are currently considering a program 
to develop a State Parks hologram upgrade to the Golden Eagle Passport. 
Under this pilot project, visitors will be given the opportunity to 
upgrade their Golden Eagle Passports to include an entire state park 
system for an additional fee. As it is currently being proposed, 
visitors would purchase a hologram sticker that they can affix to their 
Golden Eagle Passports, upgrading it to cover a state park system. We 
should note that a single interagency national pass would streamline 
these types of regional arrangements. This cooperative pass program has 
been complicated by the existence of four national passports--the 
Golden Eagle Passport, the Golden Age Passport, the Golden Access 
Passport, and the National Parks Passport. Oregon is preparing to offer 
this optional upgrade for around $20 beginning in calendar year 2004. 
We will keep the Subcommittee informed on the development of this 
innovative pilot program.
              administration of the recreation fee program
    S. 1107 would require the Secretary to analyze certain criteria 
with regard to fee levels, transmit the analysis to Congress, publish 
notice of the fees in the Federal Register, and then wait 12 months 
before establishing or changing recreation fees while, at the same 
time, establish a cap on the cost of collection at 15 percent. This 
bill also would require the Secretary to submit a report on the status 
of the recreation fee program to Congress every three years. While we 
strongly support improving Congressional reporting requirements on this 
program, we are concerned that the process set forth in S. 1107 would 
expend unnecessary resources by duplicating existing work that the 
agencies conduct in administering the recreation fee program and that 
the cost of collection cap is unrealistic. We would like to work with 
the Subcommittee to craft reporting and cost of collection provisions 
that meet the needs of Congress and the public while taking into 
account agency experience and current efforts to administer the 
recreation fee program.
      administrative efforts to improve the recreation fee program
    Through the Fee Council and other efforts, we are continually 
evaluating and developing responses to the successes and shortcomings 
of experiments agencies are conducting through the Fee Demo program. 
The Department and USDA are moving forward on a number of 
administrative efforts to improve the recreation fee program including:

  <bullet> Creating an annual interagency ``fee-free'' day on National 
        Public Lands Day in September;
  <bullet> Developing consistent application of the definitions of 
        ``entrance'' and ``use'' fees and thus, streamlining and 
        clarifying the acceptance of the Golden passes, as described 
        earlier in this testimony;
  <bullet> Implementing an interagency system to award volunteers with 
        passes;
  <bullet> Establishing a single reservation system for all visitors to 
        most federal lands;
  <bullet> Improving the website www.recreation.gov to include 
        information about recreation fees; and
  <bullet> Collecting data at National Parks on pass usage to better 
        understand and serve the visiting public.
                the future of the recreation fee program
    We have learned a great deal from our experience in administering 
the Fee Demo program and believe we are ready to translate that 
experience into a permanent recreation fee program. Delay could result 
in a lost opportunity to implement a more productive, streamlined 
recreation fee system that is designed to enhance the visitor's 
experience. Establishing a permanent program does not mean the learning 
ends here. We support a dynamic recreation fee program that responds to 
new lessons learned and builds on success stories. We believe S. 1107, 
with the amendments suggested in this testimony, would create such a 
dynamic program while providing the Department the certainty of a 
permanent program. A permanent program would allow the Department to 
make long-term investments, improve efficiencies, and initiate more 
partnerships. Mr. Chairman, the Department thanks you for your 
leadership on this issue and looks forward to working with the 
Subcommittee as S. 1107 moves forward.
    Mr. Chairman, in conclusion, I would be pleased to answer any 
questions you or other members of the Subcommittee may have.

    Senator Thomas. Thank you very much.
    Mr. Ring.

       STATEMENT OF RICHARD RING, ASSOCIATE DIRECTOR FOR 
 ADMINISTRATION, BUSINESS PRACTICES AND WORKFORCE DEVELOPMENT, 
       NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Ring. Thank you, Mr. Chairman. Thank you for the 
opportunity to present the Department of the Interior's views 
on two bills today, S. 808 and H.R. 620.
    With your permission, I'd like to submit my statements for 
the records and summarize the Department's views.
    Senator Thomas. They will be in the record.
    Mr. Ring. Mr. Chairman, S. 808 is a bill to provide for the 
expansion of Sleeping Bear Dunes National Lakeshore, to include 
selected acreage along the Crystal River. The Department 
supports efforts to protect Sleeping Bear Dunes National 
Lakeshore; however, in order to meet the President's initiative 
to eliminate the deferred maintenance backlog, we must continue 
to focus our resources on caring for existing areas in the 
National Park System. Therefore, we recommend that the 
committee defer action on S. 808 during the 108th Congress.
    H.R. 620, which would authorize assistance to the State of 
California for local educational agencies or educational 
services for students attending schools in Yosemite National 
Park and would also authorize park facilities to be established 
outside the boundary of the park. This legislation, we 
understand, was passed by the House in March 2003. The 
Department supports H.R. 620, as we believe that the students 
who attend the schools in Yosemite National Park should have 
access to educational services that are comparable to those 
that students elsewhere in California receive. The funding 
authorized by this bill would strictly limit the provision of 
assistance to address particularly the severe situation for 
schools located in a national park.
    The Department also supports authorizing expenditures for 
facilities outside Yosemite, as this would enable the National 
Park Service to contribute to the regional transportation 
system being developed to serve Yosemite's visitors and 
employees.
    Mr. Chairman, this concludes my summary. I'd be happy to 
respond to any questions that you or any other members of the 
subcommittee may have.
    [The prepared statements of Mr. Ring follow:]

     Prepared Statement of Richard G. Ring, Associate Director for 
Administration, Business Practices, and Workforce Development, National 
          Park Service, Department of the Interior, on S. 808

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 808, a bill to provide 
for the expansion of Sleeping Bear Dunes National Lakeshore to 
include selected acreage along the Crystal River.
    The Department supports efforts to protect Sleeping Bear 
Dunes National Lakeshore. However, in order to meet the 
President's Initiative to eliminate the deferred maintenance 
backlog, we must continue to focus our resources on caring for 
existing areas in the National Park System (NPS). Therefore, we 
recommend that the committee defer action on S. 808 during the 
108th Congress.
    The existing NPS has more demands on it than ever before. 
Since 1991, 34 new units have been added to the System. These 
units alone in FY 2003 add $25.6 million to the System's 
operating budget, over $30 million in unfunded operational 
needs, and over $265 million in unfunded one-time projects. In 
addition, we have expanded a number of units over that time 
period. Expansions also can bring with them increases in 
operational costs and maintenance needs. These units and 
expansions include important resources that we as Americans 
recognize as nationally significant. Our focus now though is to 
take better care of the natural, cultural, and historic 
resources and visitor facilities already in the System.
    S. 808 would redraw the boundary of the 71,192.60-acre 
Lakeshore to include a parcel of land that is contiguous to the 
existing Lakeshore. The 104.45-acre parcel encompasses 6,300 
feet of frontage on the Crystal River and contains wetland, 
riparian, and upland habitat for a variety of species within 
mixed northern forests. The land appraisals have not been 
completed, but the estimated cost of acquiring the private land 
is between $7-9 million dollars.
    The private landowner first proposed development, including 
a golf course and homes, on the parcel in the late 1980s. To 
protect the parcel from development, several land exchange 
alternatives have since then been considered by the NPS and 
interested parties. However, for a variety of reasons, an 
agreed upon exchange could not be reached. The interested 
parties wished to acquire NPS land that was not suitable for 
exchange since NPS had previously acquired it through 
condemnation. In addition, through the General Management Plan 
scoping process, 87 percent of the 850 comments received 
expressed opposition to any type of exchange involving NPS 
lands. Comments were received from local entities, interested 
organizations, visitors, and the general public. This 
legislation was proposed as a solution for the protection of 
the property.
    The Department of Justice has advised that Section 1(c)(2) 
of the bill, as introduced, violates the Recommendations Clause 
of the Constitution. In addition, the fiscal year 2004 budget 
request has already been submitted. We recommend that this 
section be removed.
    Mr. Chairman, that concludes my prepared testimony. I would 
be happy to answer any questions you or the other members of 
the subcommittee may have.
                                ------                                


     Prepared Statement of Richard G. Ring, Associate Director for 
Administration, Business Practices, and Workforce Development, National 
         Park Service, Department of the Interior, on H.R. 620

    Mr. Chairman, thank you for the opportunity to present the 
views of the Department of the Interior on H.R. 620, which 
would authorize assistance to the State of California or local 
educational agencies for educational services for students 
attending schools in Yosemite National Park and would authorize 
park facilities to be established outside the boundary of the 
park. This legislation was passed by the House on March 25, 
2003.
    The Department supports H.R. 620, as we believe that 
students who attend schools in Yosemite National Park should 
have access to educational services that are comparable to 
those that students elsewhere in California receive. The 
funding authorized by this bill would be a strictly limited 
provision of assistance to address a particularly severe 
situation for schools located in a national park. The 
Department also supports authorizing expenditures for 
facilities outside Yosemite, as this would enable the National 
Park Service to contribute to the regional transportation 
system being developed to serve Yosemite's visitors and 
employees.
    Schools have been located within Yosemite National Park for 
over 125 years to serve the needs of park employees and their 
children. At present, two elementary schools are located within 
the park, at Wawona and in Yosemite Valley. A third elementary 
school and a small high school are located in El Portal, the 
park's administrative site located on federal property just 
outside the park boundary. Most high-school age students attend 
the larger county high school in Mariposa because of the lack 
of opportunity for a comprehensive program at the El Portal 
school.
    The Yosemite Valley School has 42 students in grades 
kindergarten through eighth grade, divided into three classes. 
The amount of funding from the State of California, according 
to a formula based on average daily attendance, supports only 
two teachers. The school principal also serves as a teacher.
    The elementary school in El Portal has 53 students in seven 
grades, divided into multi-graded classrooms. The Wawona school 
mirrors the old ``one-room'' schoolhouse, with 16 children in 
grades K-8, and one teacher. Because the current funding 
formula provides for only one teacher, the school is unable to 
serve more than 20 students. Consequently, in years when the 
maximum teacher-student ratio is reached, parents are left with 
the choice of either home-schooling their children or 
transporting them on their own to schools elsewhere.
    Because the schools in the park are located in remote 
areas, students at the Yosemite schools lack services that are 
normally available to students that attend schools elsewhere in 
the state. For example, access to teachers to serve students 
with special needs is very limited, and road and weather 
conditions can often restrict teachers' abilities to reach the 
park. Many facilities are in need of repair or do not meet 
state or federal standards.
    The quality of education that students receive in these 
schools suffers as a result of lack of funding and staffing. 
For example, because teachers in the Yosemite schools are 
responsible for multiple grade levels, they are at a 
disadvantage compared to teachers who are able to focus on the 
curriculum and standards for one grade. In addition to their 
educational duties, teachers must also tend to administrative 
duties normally performed by other employees. As a result, they 
are unable to give the time or attention necessary to provide 
the quality of education that the students deserve.
    Recruitment and retention of employees at Yosemite National 
Park is also adversely affected by the quality of the park 
schools. Many highly qualified National Park Service employees 
with school-age children who might otherwise be interested in 
applying for jobs at Yosemite are discouraged from doing so 
because of the school situation. Park employees often cite the 
schools as a major factor in their decision to transfer from 
Yosemite to other assignments.
    H.R. 620 authorizes the Secretary of the Interior to 
provide funds to the two school districts that administer 
schools at Yosemite for educational services to students who 
are dependents of park employees or who live on federal 
property in or near the park. The bill prohibits funds from 
being used for facility construction or major improvements, and 
limits the amount of funding that may be provided to the lesser 
of $400,000 annually or the amount necessary to provide 
students with educational services comparable to those received 
by other public school students in California. The bill allows 
funding for this purpose to be derived from appropriations, 
donations and fees, except that it prohibits the use of fees 
collected under the Land and Water Conservation Fund Act, from 
the Recreational Fee Demonstration program, and from the 
National Park Passport program. The legislation also prohibits 
the use of emergency appropriations for Yosemite flood recovery 
for this purpose.
    We want to note that the proposal to assist Yosemite 
schools has been refined considerably since it was first 
introduced last Congress. The initial proposal was an 
indefinite authorization of funding with no limit on the dollar 
amount that could be spent or restriction on the use of the 
funds. During the last Congress, the Department worked closely 
with this committee, the House Resources Committee, and the 
House and Senate Appropriations Committees to set limits on the 
amount, duration, use, and source of the funding authorized by 
this legislation. The result is that the proposal in its 
current form is now a tightly drawn authorization of a limited 
amount of federal assistance for what is a unique educational 
situation.
    We strongly believe that any assistance for schools 
authorized by this bill should be supplemental to Yosemite's 
annual budget and should not result in a reduction of the 
amount of funding available for park operations and 
maintenance.
    H.R. 620 also authorizes the Secretary to provide 
assistance for transportation systems and facilities outside 
the boundary of Yosemite National Park. It does so by extending 
to Yosemite the same authority Congress provided Zion National 
Park in 1996 to enter into agreements and expend funds outside 
the boundaries of the park. This bill explicitly allows 
appropriations to be used for ``transportation systems'' along 
with other administrative and visitor use facilities.
    This provision would allow the park to contribute 
financially to the regional transportation system that serves 
the park's visitors and employees. Developing this system has 
been a goal of the park since the adoption of the 1980 General 
Management Plan.
    In 1999 Mariposa, Merced, and Mono counties created a Joint 
Powers Authority as an entity to implement the Yosemite Area 
Regional Transportation System (YARTS) and entered into a 
Cooperative Agreement with Yosemite National Park. Now in its 
fourth successful year, YARTS provides an attractive 
alternative for visitors and employees without having to 
replace the use of private cars. In 2001, YARTS carried over 
38,000 passengers, including park employees, during Yosemite's 
prime visitor season (May through September). Many of these 
visitors chose to leave their cars at their motels or other 
locations outside the park. By choosing YARTS to access the 
Yosemite Valley, over 11,000 parking places were made available 
during the summer.
    During the initial two years, the National Park Service 
participated in the funding of this project using fee 
demonstration program authority. In its third year of 
operations, that funding was no longer available, and YARTS had 
to reduce the number of runs it provides. The regional 
transportation system is an important means to solve Yosemite's 
parking and congestion issues by reducing the amount of 
infrastructure development within the park, and thus 
substantially reducing the funding requirements for 
implementing the Yosemite Valley Plan. The Department believes 
that a small amount of federal assistance will help make YARTS 
an even bigger success.
    In addition, the authority provided by H.R. 620 would 
enable the National Park Service to establish visitor contact 
facilities in the park's gateway communities, as is called for 
in the Yosemite Valley Plan.
    In order to assure that the park has the ability to 
contribute to YARTS through all available transportation 
authorities, we suggest amendment H.R. 620 to make the 
transportation fee authority provided under Title V of the 
National Parks Omnibus Management Act of 1998 (P.L. 105-391) 
applicable to parks that fund transportation services through a 
cooperative agreement. The existing language allows parks to 
use that authority only in cases where transportation services 
are provided through a service contract. The text of this 
proposed amendment is attached.
    Mr. Chairman, this concludes my remarks. I would be happy 
to respond to any questions that you or the other members of 
the subcommittee may have.

       Proposed Amendment to H.R. 620 as Passed by the House of 
                            Representatives

    Page 6, line 6: insert ``(a)'' before ``Section''.
    Page 6, after line 15, insert the following:
        ``(b) Section 501 of the National Parks Omnibus 
Management Act of 1998 (16 U.S.C. 5981) is amended in the first 
sentence by inserting `, cooperative agreement, or other 
contractual arrangement' after `contract' ''.

    Senator Thomas. Did you want to comment on the other bills, 
or just those two?
    Mr. Ring. Just those two.
    Senator Thomas. Okay, very good. All right. Well, thank you 
very much. Appreciate your testimony.
    With respect to the school thing, what other parks do you 
think are going to fall in this category, and how many do you 
believe will be involved?
    Mr. Ring. We believe Yosemite has a unique circumstance, 
and we, right now, know of only one other park where this issue 
has come up and authority has been sought and obtained, and 
that is at Yellowstone. We know of no other parks that are 
seeking similar kinds of authority.
    Senator Thomas. Would you like to speculate whether, if 
this is done, there will be more?
    Mr. Ring. I guess I wouldn't speculate, Mr. Chairman, but I 
think each one of them has to be looked at.
    Senator Thomas. It would be a criteria, I presume, that 
does that. Okay.
    Your numbers over there, you show the percentage of 
increase. What about the total numbers in the park, relative, 
say, to BLM?
    Ms. Scarlett. Current visitation levels at National Park
    Service are the largest of our recreation-serving 
facilities. Visitation there is about 277 million visitors per 
year. The Bureau of Reclamation has about 90 million per year. 
And BLM and the Fish and Wildlife Service, I don't have the 
numbers straight on the top of my head, but could get those to 
you. What we do know is that they're growing rapidly, 
particularly in very specific locations.
    Senator Thomas. I guess I would question a little bit that 
I think there are--at least in Wyoming there are--and I 
understand that you could establish a criteria, but there are 
certainly a lot of places on the forest where local people just 
walk in and do these things. In the very first--at the 
beginning, why, one of the demonstration projects was in Sand 
Dunes in the Red Desert. They had to limit--they discontinued 
it because it was unable to collect the fees, and so on. So I 
guess what I'm saying to you is, I don't have a particular 
objection to expanding this to the other units, but there has 
to be some criteria that--as you say, where there's certain 
facilities, there's some reason to have a fee, other than the 
fact that it's public land.
    Ms. Scarlett. Yes, Senator, we fully agree with that. Right 
now, at the Bureau of Land Management, about 87 percent of 
locations do not have fees. And for the Forest Service and the 
Fish and Wildlife Service, about 94 percent, 93 percent, do not 
have fees. So it's a relatively small number. And the reason 
for that is that there are a relatively limited number of areas 
in those units for which fees are applicable. They need to be 
areas with infrastructure that is visitor-serving--parking 
lots, toilet facilities, visitor centers, or other visitor-
serving kinds of infrastructure. They also need to be 
accessible in a way in which you have entry locations. So we 
quite agree, there need to be criteria.
    The Bureau of Land Management, under the demo program, as 
well as Fish and Wildlife Service, have a review process that 
they go through. A local entity might propose a fee. That gets 
reviewed in the context of a business plan or a fee plan. There 
are public hearings and reviews, or public comment. And for the 
Fish and Wildlife Service, any fee proposal actually is 
reviewed and approved by the director, himself or herself. So 
we quite agree, this is not just a concept that is applicable 
anywhere, and we have in place, through our learning 
experiences, criteria that have been developed respectively in 
each bureau.
    Senator Thomas. I think the demonstration program in the 
parks have raised about $125 million, and BLM is $8 million. 
It's a relatively smaller amount and probably won't--have you 
experienced any organized opposition to the fee program in the 
national parks?
    Ms. Scarlett. We have not had, for the national parks, any 
what I would I characterize as organized opposition. Obviously, 
with any concept there are always some citizens who might have 
some disagreements. Generally, because fees have been charged 
at the parks of one sort or another since their inception 
nearly a hundred years ago, I think there's public familiarity. 
And what we find is the critical issue for public support is 
whether the fees clearly are being utilized for enhancing the 
visitor experience. We find that true in the parks on our 
Bureau of Land Management lands and our Fish and Wildlife 
Refuges. All of them, 85 or 90 percent, support if that link is 
there.
    Senator Thomas. It's kind of tough sometimes. There's 
nothing more important to visitors than the water supply, for 
example, but that doesn't show very much, and nobody recognizes 
that that's visitor--near as much as a museum or something of 
that nature, certainly.
    Senator, questions?
    Senator Akaka. Thank you very much, Mr. Chairman.
    Secretary Scarlett, one of the major issues facing national 
parks in Hawaii is the threat of invasive species from outside 
of the park. As you know, miconia, is an aggressive tree 
species and is a major problem at Haleakala National Park. Last 
year when you testified on fee legislation, you told me that 
you wanted to look into this issue further. But the problem was 
that the National Park Service is prevented from spending any 
money outside of the park boundaries. I note that the 
administration is supporting another bill on today's agenda, 
H.R. 620, which would allow for park funds to be used at local 
schools outside of the park. Given that position, will you also 
support allowing fee revenues to be used to protect the park 
from imminent threats, even if that means spending some of the 
money outside of the park boundary?
    Ms. Scarlett. Senator, we have several concepts that we 
have been working on and would like to see them applied, 
actually, to the National Park Service. You may be aware that 
in our 2003 appropriations bill we had something called our 
Cooperative Conservation Challenge Cost Share. It applies to 
Bureau of Land Management, Fish and Wildlife Service, and the 
parks, and, in the case of BLM and Fish and Wildlife, enables 
them to engage in cost-share funding for things like invasive 
removal on lands adjacent to those BLM or wildlife refuge 
units.
    In the case of the Park Service, there has been other 
restrictions that have precluded that. We look forward, 
actually, to exploring ways to overcome that restriction so 
that we can work on such matters as invasives removal. Those 
invasives know no jurisdictional boundaries. They move across 
them, and we need to address them in a cohesive way.
    Senator Akaka. Well, I'm glad there is that consideration, 
and look forward to working with you on this. And, as you know, 
the problem is that you have to go beyond your boundary to 
protect it from the invasive species, and that's the problem 
they were having.
    Mr. Ring, I have a couple of questions with respect to S. 
808, the Sleeping Bear Dunes bill. The administration is 
requesting that the Congress defer action on the bill. Well, 
for the record, is there any concern about the need to protect 
this land or the appropriateness of including it within the 
boundary of the National Lakeshore?
    Mr. Ring. No, sir, there is not.
    Senator Akaka. Based on our hearing last July, it appears 
that at current funding levels, it will be several years, at 
best, before there are serious reductions in the maintenance 
backlog. Since the backlog is the rationale for the 
administration's request to defer action on the bill, would it 
be safe to assume the administration will want to continue to 
defer action on this as long as there is a maintenance backlog?
    Mr. Ring. Senator, I believe that the scale of the backlog, 
in our understanding of it right now, has certainly led us to 
this position. We review our progress on that every year. And 
at some point I think we're going to believe that we have got 
far enough along that we can start to consider other needful 
priorities. But I wouldn't speculate on how long that will be. 
I would just say that we're reviewing that annually, as we put 
together a budget.
    Senator Akaka. It's my understanding this land was proposed 
for development and probably will be developed if is it not 
included in the park. So how do you calculate the cost of 
losing this land if we don't acquire it now and it's 
subsequently developed?
    Mr. Ring. How do we calculate it? It certainly would be 
lost potential to the park, and we certainly understand that in 
the context of the resource values that have been assessed on 
it and the opportunity for public recreation. But beyond that, 
we would have to assess a specific proposal, in terms of 
whether it represented any threats to the park and to the 
surrounding area.
    Senator Akaka. My time has expired.
    Senator Thomas. Mr. Ring, what is the appraisal of the 
property? Do you know the value?
    Mr. Ring. We've estimated the value at between $7 and $9 
million.
    Senator Thomas. $9 million.
    Mr. Ring. In the range of $7 to $9 million.
    Senator Thomas. For a hundred acres.
    Mr. Ring. Yes, sir.
    Senator Thomas. You could get more than that in Wyoming for 
$9 million.
    [Laughter.]
    Senator Thomas. Have you talked about some sort of a trade? 
Is there an opportunity to----
    Mr. Ring. We did explore the possibility of a land 
exchange, but the property that was under consideration was 
acquired by the National Park Service, specifically through 
condemnation. The idea of giving it up when it maintains its 
capacity to be an integral part of the park, particularly when 
it was--the previous owners had it condemned, led to us making 
the decision that it was not appropriate to pursue an exchange. 
Equally, the public comment we received on the proposal as it 
went out in draft was about 85 percent against considering such 
an exchange, for the reasons I have described.
    Senator Thomas. Ms. Scarlett, what you talk about in your--
and others talk about--having a single pass for all Federal 
lands, possibly even State parks, do you think something could 
ever work out that the States would go along with or that would 
work for variations in the type of resources that are there?
    Ms. Scarlett. We're very optimistic that we can have not 
only some sort of an interagency national pass, but also 
regional passes and ones that include States. We actually 
already have several regional examples where--in the State of 
Idaho, for example, we have a pass in which multiple Federal 
land State agencies are working together with a single pass. We 
are exploring the application of a hologram, simply a hologram 
upgrade, to the Golden Eagle Pass right now, working with the 
State of Oregon. So we think these concepts are not only 
underway, but have a lot greater potential than has been 
fulfilled to date.
    Technology also is increasingly making it more possible, 
through swipe cards and that sort of technology, to track where 
the pass was purchased, where it's used, so that the fee-
distribution element becomes more reasonable.
    Senator Thomas. I was going to ask you that. Do they get--
does somebody get the 80 percent, then?
    Ms. Scarlett. What we are working on, conceptually--and, in 
fact, we have a pilot project underway with the swipe-card 
technology, which will help us track where fees are collected, 
where they're used. We will be exploring, then, what would be 
useful distribution systems.
    We think one thing is key. It's important that where passes 
are actually used, which is where the visitor effects are, we 
do need to keep a substantial portion of the fees going back to 
those locations. But right now, for example, we do have a 
certain portion of the fee that goes back and is used, then, 
service-wide for service-wide priorities. Setting that 
percentage allocation is something that we have to work on, but 
we think we now have both the background and experience to do 
that, and the technology to make it feasible.
    Senator Thomas. I think that's one of the things that you 
find some resistance to, is if I pay a fee to go in Teton Park, 
then I accept the fee because I think that the money is being 
spent there. If I'm going to raise an additional fee to go in 
Teton that's spent in Devil's Island or whatever it is, why, 
then I'm less enthusiastic about it sometimes.
    Ms. Scarlett. We agree that that is a very significant 
issue, and so we want to preserve that structure whereby the 
link between the fee and the investment is maintained. However, 
we think there's some flexibility there. We have found visitor 
satisfaction with, for example, right now, 80 percent of fees 
going to that particular unit and them some service-wide. Some 
of the service-wide investments really do benefit all the park 
units, and I think visitors understand that.
    Senator Thomas. What is the overhead cost of collection, do 
you know?
    Ms. Scarlett. For the Park Service right now it's hovering 
at about 20 percent. That obviously varies by individual park 
unit. There are many factors that go into that. But it's been 
stable at around the 20/21 percent level for a couple of years 
now.
    Senator Thomas. In some of the parks, the demonstration fee 
is not the total fee there. Is that right? They had a fee 
before, and the demonstration was added to it. Is it all 
managed as a demonstration fee now?
    Ms. Scarlett. I guess I'd have to turn to Dick to parse out 
whether that 20 percent is just the demo portion or includes 
the remainder.
    Mr. Ring. Most of it, the lion's share of it, is managed 
under the Fee Demo authority. There are some other fees 
collected--a recreation-use fee and transportation fees that 
are collected oftentimes at the same point.
    Senator Thomas. Is it Yellowstone has had a fee since the 
1930's?
    Mr. Ring. Yes, sir.
    Senator Thomas. It's not a demonstration fee, or at least 
they didn't start that way. Is it all considered now a 
demonstration fee?
    Mr. Ring. It is all handled as part of that program, yes, 
sir.
    Senator Thomas. Okay.
    Further questions, Senator?
    Senator Akaka. Yes, Mr. Chairman.
    Mr. Ring, the administration has consistently opposed or 
recommended deferring park-related bills, even bills that 
authorize studies. They do this to focus on that maintenance 
backlog. H.R. 620 would authorize a new use of park revenue for 
non-park purposes. And my question to you is, how is this 
consistent with your opposition of all of these other bills?
    Mr. Ring. The workforce in Yosemite is both large and 
varied, and our ability to recruit and retain the best 
workforce that can both provide service to the visitor as well 
as attack that backlog is critically important. We also would 
not want a workforce profile in Yosemite that did not--was not 
made up of families with school-aged youngsters who are a part 
of the profile of visitors. And we would want that workforce to 
reflect an understanding of the visitors coming into the park, 
as well as, as I said, to be able to attract the best workforce 
to attack the critical problems with the park.
    Senator Akaka. Thank you.
    Senator Thomas. One final shot. I think last year's bill on 
Yosemite said they had to get a special appropriation. It could 
not be taken out of the normal fund. Is that the case here?
    Mr. Ring. If I could ask for some clarifications, Mr. 
Chairman, are you asking, if this bill passed would they have 
to seek a special appropriation? I believe that they would 
either have to seek funding--either allocate funding from the 
appropriation they received, seek additional funding, and there 
may be some limited----
    Senator Thomas. Well, that's the difference I'm asking you 
about. Does it come out of their regular appropriation? Does 
this just authorize them to spend it for that? Or does it 
require that they have additional appropriation for this 
purpose on top of their----
    Mr. Ring. I believe this bill authorizes them to spend any 
appropriation they have, whether they seek it specially or 
whether it's part of the regular appropriation.
    Senator Thomas. So it could be, if they get a million 
dollars, why, it has to come out of that, they have less to 
spend on the park than they did before.
    Mr. Ring. That would be what the authority would allow for, 
based on the judgment of the park superintendent and the 
circumstances with the schools.
    Senator Thomas. Okay. Well, if there's no further 
questions, then we'll go on to the next panel. Thank you very 
much. And we'll be in touch on some of these as we move forward 
with the bill.
    The next panel is Mr. Jim Maddy, president, National Park 
Foundation, Mr. Ken Olson, president, Friends of Acadia, Bar 
Harbor, Maine, and Robert Funkhouser, president, Western Slope 
No-Fee Coalition, from Vermont.
    Mr. Maddy, we'll start with you, sir.

              STATEMENT OF JIM MADDY, PRESIDENT, 
                    NATIONAL PARK FOUNDATION

    Mr. Maddy. Thank you, Senator Thomas.
    My name is Jim Maddy. I'm the president of the National 
Park Foundation, which was chartered by Congress in 1967 to 
encourage private philanthropic support of America's national 
parks. I want to thank you for the opportunity to appear today 
before this subcommittee to comment on S. 1107 and the 
Recreation Fee Program for the National Park Service.
    With your permission, I'll submit this written testimony 
for the official record, and summarize my remarks today.
    Senator Thomas. It will be in the record.
    Mr. Maddy. Thank you.
    In January 1998, the Secretary of the Interior and the 
Director of the National Park Service requested that the 
National Park Foundation undertake a strategic marketing study 
of the potential sale of the Golden Eagle Pass outside of 
national parks. Golden Eagle is an annual pass providing the 
user with entrance to Federal lands, charging an entrance fee. 
That study focused on two questions: the potential untapped 
market for the past, and the potential new net income that 
could be generated by selling the pass outside of the national 
parks.
    Senator Thomas. Is your loudspeaker on, Jim?
    Mr. Maddy. I think it is.
    Senator Thomas. The light showing there?
    Mr. Maddy. The light's showing.
    Senator Thomas. Okay.
    Mr. Maddy. I'll bring it up closer.
    Senator Thomas. All right, thank you.
    Mr. Maddy. After the historic passage of the National Park 
Omnibus Management Act of 1998, the National Park Foundation 
entered into an agreement with the National Park Service to 
implement and operate the National Parks Passport program, 
which was created in that legislation. In operating the pass 
program, the National Park Foundation continues to use the 
findings of the initial business plan in guiding the program's 
operations.
    One of the key conclusions from that study, Senator, is 
that there is significant domestic market potential for a 
national park pass. In that potential market, there are two 
possible customer approaches to purchasing a pass: a 
stewardship buyer and value buyers. Stewardship buyers are 
those who might expect some value from the pass but might not 
expect to get a bargain or use full value. They would see the 
purchase as support for national parks. While value buyers 
might see a pass purchase as a bargain and would expect to use 
the full value, and more. The business research suggested that 
stewardship buyers potentially comprise a greater percentage of 
the total market.
    The business plan also concluded that with significant 
investment into redesigning the pass, supporting its sale in 
the partnering of qualified indirect channels, such as 
specialty retailers and mass merchandisers, we could 
significantly increase pass sales.
    As we near the end of the fourth season of the program, I'm 
happy to report significant progress and success in the 
development of the National Park Passport Program. We have seen 
growth in sales in each year of the program, and we have been 
able to keep operating costs to 15 percent of total revenue. 
Last year, over 300,000 passes were sold. And although we do 
not have complete numbers yet for 2003, we predict that we're 
on track for another year of growth.
    In addition to the raw financial benefits that have 
resulted through the creation of the National Park Passport 
Program, there are significant qualitative benefits, as well. 
The national park pass is a valuable communications tool to 
reach new audiences about national parks, and encourage every 
individual to experience these special places firsthand. 
Through the pass packaging and promotional materials and all 
the communications about the pass program, we emphasize the 
breadth and depth of the National Park System, the ability of 
every individual to have a unique national park experience, and 
the benefit of purchasing a pass, and the benefit that 
purchasing a pass will bring to these places.
    ``More than 80 percent of pass proceeds go straight into 
vital park programs,'' is a powerful phrase that has proved to 
be successful in reaching those potential stewardship buyers 
interested in visiting as well as financially supporting the 
national parks.
    Operating the National Parks Passport Program has not been 
without its challenges. The initial business plan for the 
program included higher sales and revenue figures than we 
currently enjoy today, primarily because of several key 
assumptions that, at the time, included the assumption that the 
pass would be sold through four key indirect channels we 
anticipated at that time--mass merchandisers, specialty 
retailers, specialty discounters, and also retail catalog 
sales. These indirect channels were identified because of their 
ability to help us reach first-time purchasers of national park 
passes.
    One of our current challenges is attempting to find the 
balance between increasing fee revenue, in the short term, 
versus increasing the number of national park stewards, in the 
long-term. We've found that these two objectives often compete 
with each other and have made it difficult to expand the 
program to its full potential. An emphasis on maximizing short-
term fee revenue, for example, precludes us from partnering 
with as many retail outlets and other indirect sales channels 
as we might be able to because of the concern that retail sales 
might decrease gate sales.
    Because of these competing objectives, we are concerned 
about the language in section 3 of the legislation that directs 
50 percent of the amounts collected from the sale of the 
national park pass to remain at the site where it was sold, 
with the remaining amount allocated to the shared service-wide 
fund.
    For those most concerned about the short-term fee intake, 
that is, the folks in the Park Service--this change in 
allocation, which decreases the amount of funds allocated to 
remain in the park where the pass was sold, may create a 
powerful disincentive for individual parks to sell or promote 
the sale of the national park pass.
    We applaud your commitment reflected in section 2 of the 
legislation to simplify the visitor experience and streamlining 
the fee system by exploring the possibility of allowing 
revenue-sharing agreements between State agencies and the 
National Park Service, just as was the case at the beginning of 
the National Park Passport Program. However, making this change 
will require a significant investment in communicating to the 
National Park Service field staff so that the full range of 
pass options available to the visitor can be communicated 
effectively on the ground.
    We would welcome the opportunity, in partnership with the 
National Park Service, to explore ways to increase our 
communications to the public and to field staff about the fee 
options available, or to otherwise streamline the system.
    Another key challenge has been to harness the power of new 
technology in order to make the National Park Passport Program 
the most efficient program it can be. While we have made great 
strides in this area, we maintain a database that allows for 
renewal notices and the use of Internet and toll-free numbers 
have proved value to many park visitors seeking information. 
There is often dissatisfaction among consumers who have come to 
expect a higher level of service with such passes. We believe 
the opportunity is there to improve the program by implementing 
new technologies, such as credit card capability in every fee 
booth, access to account numbers by National Park Service 
personnel--for example, when visitors forget their pass--the 
implementation of processes that would allow for collection of 
usage data through card swipes and automatic entry points at 
the national park gates.
    In conclusion, when creating the National Park Passport, 
you did not just create an entrance for national parks, you 
created a powerful communications tool and a means for 
individuals to express their support for America's national 
parks. The National Park Foundation continues to be committed 
to the National Park Passport program and to finding ways to 
reach more and more people and connecting them to national 
parks through the National Park Pass.
    Senators, thank you for your ongoing support of the 
national parks and the National Park Foundation. And we thank 
you again, Mr. Chairman, for the opportunity to appear before 
you today.
    [The prepared statement of Mr. Maddy follows:]
  Prepared Statement of Jim Maddy, President, National Park Foundation
    Thank you Senator Thomas. My name is Jim Maddy, and I am President 
of the National Park Foundation, which was chartered by Congress in 
1967 to encourage private philanthropic support of America's National 
Parks. Thank you for the opportunity to appear today before this 
subcommittee to comment on S. 1107 and the recreational fee program for 
the National Park Service. With your permission, I will submit this 
written testimony for the official record and summarize my remarks 
today.
    As you know, the National Park Foundation is governed by a 
nonpartisan board of distinguished civic and business leaders committed 
to supporting National Parks. Per the terms of our congressional 
charter, the Secretary of the Interior serves as the Chairman of our 
Board and the Director of the National Park Service serves as the 
Secretary of the Board. The Chairman of the Board delegates much of the 
day-to-day management of the Foundation to a citizen Vice Chair, a role 
currently held by David Rockefeller, Jr. Board members receive no 
compensation for their service and make substantial personal financial 
contributions to fund our operations. I did not allow time for this 
testimony to be reviewed by the board prior to this hearing, so the 
opinions expressed are mine alone.
    The mission of the National Park Foundation is to strengthen the 
enduring connection between the American people and their National 
Parks by raising private funds, making strategic grants, creating 
innovative partnerships and increasing public awareness. Over the past 
eight years NPF has enjoyed substantial growth: over $195 million in 
contributions and $175 million in total grants and program support to 
National Parks across the country. The Foundation receives the majority 
of its contributions from corporations, whose support is often in the 
form of in-kind services such as marketing and promotional support, 
contributions toward specific programs or donations of goods. The 
Foundation's growth has been achieved with fundraising and 
administrative costs kept to a minimum--these costs represent just 10 
percent of all Foundation expenses, with 90 cents of every dollar 
dedicated to National Park grants and program support.
    national park foundation role in the national parks pass program
    In January 1998, the Secretary of the Interior and the Director of 
the National Park Service requested that the National Park Foundation 
undertake a strategic marketing study of the potential sale of the 
Golden Eagle pass outside of National Parks. The Golden Eagle is an 
annual pass providing the user with entrance to federal lands charging 
an entrance fee. The pass can only be purchased at a federal site or 
from a federal office--at the entrance gate or by mailing a check or 
money order to an agency. The study focused on two questions: the 
potential untapped market for the pass and the potential net new income 
that could be generated by selling the pass outside of National Parks. 
The study, conducted by VIA International of Chicago in close 
consultation with the National Park Service and National Park 
Foundation, resulted in a recommended business plan for the 
implementation of a National Parks Passport program.
    After the historic passage of the National Parks Omnibus Management 
Act of 1998, the National Park Foundation entered into an agreement 
with the National Park Service to implement and operate the National 
Parks Passport program, which was created in Section 602 of that 
legislation. In operating the Pass program, the National Park 
Foundation continues to use the findings of the initial business plan 
in guiding the program's operations.
    Central components of the business plan included the following six 
conclusions about the market potential for a National Parks Pass:
Significant domestic market potential
    The potential market is comprised of buyers who share a love of 
National Parks. Market research defined two possible customer 
approaches to purchasing a Pass: stewardship buyers and value buyers. 
Stewardship buyers are those who might expect some value from the Pass 
but might not expect to get a bargain or use full value. They would see 
the purchase as support for National Parks. Value buyers might expect 
to use the full value and more of the Pass. They would see the purchase 
of a Pass as a bargain. The research suggested that stewardship buyers 
potentially comprise a greater percentage of the total market.
Moderate international market potential
    Research suggested that the international market would be much 
smaller than the domestic and much more fragmented. Given the recent 
tremendous decline in international travelers, we have some data that 
indicates that the market may even have shrunk more in the past several 
years. Weighing these factors, that market has not been considered to 
be profitable enough for us to pursue proactively. Additionally, we 
were committed to ensuring that the domestic program be fully developed 
and successfully operating before we undertook the task of developing a 
significant international presence.
Significant potential in-Park sales
    The research indicated the potential for in-Park sales to double 
from what they were, but not without significant effort and substantial 
investment in re-designing the Pass and supporting its sale. That 
investment would include packaging and Pass design, communications with 
Park staff, point of sales infrastructure, and clarification of Pass 
program policies.
Qualified channel partners are interested in selling the Pass
    The business plan defined both potential direct and indirect 
channels that could sell the Pass. Direct channels would include mail, 
1-800 number, Internet and in-Park sales, and indirect channels could 
include mass merchandisers, specialty retailers, specialty discounters, 
and catalogs. From the beginning we have been committed to working with 
qualified channel partners--reputable organizations and businesses 
whose values align with the National Park System and can ensure that 
neither the Pass nor the Parks become over-commercialized. Even these 
partners, though, are generally not willing to forgo significant 
margins or greatly modify their standard practices in the interests of 
working with the National Park Foundation or the National Park Service.
Vast reservoir of goodwill toward National Parks
    All of the outside research undertaken by the National Park 
Foundation indicates that the American public continues to strongly 
support America's National Parks. There appears to be a distinct lack 
of understanding, however, about what constitutes the National Park 
System and about the opportunities these places can afford to visitors.
Comparison products provide useful lessons, but no ``silver bullet''
    When studying the market for a National Parks Passport program, the 
two programs analyzed as possible benchmarks were the Duck Stamp 
program and the California State Parks System. Both programs provided 
best practices and examples of pitfalls to avoid, but neither showed a 
clear success formula that translates directly to the Pass.
               national parks passport program highlights
    As we near the end of the 4th full year of the program, I am happy 
to report significant progress and successes in the development of the 
National Parks Passport program. We have seen growth in sales in each 
year of the program, and we have been able to keep operating costs to 
15% of total revenue. Last year, over 300,000 Passes were sold, and 
although we do not have complete numbers yet for 2003, we predict that 
we are on track for another year of growth.
    In addition to the raw financial benefits that have resulted 
through the creation of the National Parks Passport program, there are 
significant, qualitative benefits as well. The National Parks Pass is a 
valuable communications tool for the National Park Foundation and the 
National Park Service to reach new audiences about National Parks. In 
an increasingly virtual world, in a world where we are bombarded with 
high-tech, hyped inducements to head to the nearest theme park, 
National Parks still represent bedrock reality. These unique places 
teach us our nation's history and celebrate our heritage. They protect 
millions of plant and animal species, and they preserve vast 
landscapes. We must be ever vigilant in ensuring, however, that these 
places are not taken for granted.
    We have a responsibility to reach the newest citizens of this 
country as well as those whose families have lived here for generations 
and encourage every individual to connect with their National Parks. 
The National Parks Pass is a powerful tool to make that connection. 
Through the Pass packaging, promotional materials and all 
communications about the Pass program, we emphasize the breadth and 
depth of the National Park System, the ability of every individual to 
have a unique National Park experience, and the benefit that purchasing 
a Pass will bring to these special places. ``More than 80% of Pass 
proceeds go straight into vital park programs'' is a powerful phrase 
that has proved to be successful in reaching those buyers interested in 
visiting as well as financially supporting their National Parks.
    As mentioned previously, the initial market research had identified 
stewardship buyers as potentially representing a greater percentage of 
National Parks Pass buyers. Even among those identified as value 
buyers, however, focus group research suggested that the more 
prospective purchasers learn about National Parks, the more intense 
stewardship benefits become. In other words, the National Parks Pass is 
a means of reaching a range of potential National Park stewards who 
will likely commit to supporting National Parks in a variety of ways 
over the course of their lifetimes.
       national parks passport program challenges & opportunities
    Operating the National Parks Passport program has not been without 
its challenges. One of the key conclusions drawn about the market for 
the National Parks Pass was that there was no other program that could 
serve as a clear comparison. Although the experiences of the federal 
Duck Stamp program and the California State Park System were helpful in 
shaping the National Parks Passport program, it is the case that the 
National Park Foundation and the National Park Service have been 
navigating through new territories and adjusting as needed as the 
program has developed.
    The initial business plan for the National Parks Passport program 
included higher sales and revenue figures than we currently enjoy 
today, primarily because of several key assumptions made at that time 
including the assumption that the Pass would be sold through four key 
indirect channels--mass merchandisers, specialty retailers, specialty 
discounters and catalogs. These indirect channels were identified 
because of their ability to help us reach first-time purchasers of the 
National Parks Pass.
    One of our current challenges is attempting to find the balance 
between increasing fee revenue in the short term versus increasing the 
number of National Park stewards in the long-term. We have found that 
these two objectives often compete with each other and have made it 
difficult to expand the program to its full potential. An emphasis on 
maximizing short-term fee revenue, for example, precludes us from 
partnering with as many retail outlets and other indirect sales 
channels as we might be able to because of a concern that retail sales 
will decrease gate sales.
    Because of these competing objectives, we are concerned about the 
language in Section 3 of the legislation that directs 50% of the 
amounts collected from the sale of the National Parks Pass to remain at 
the site where it was sold, with the remaining amount allocated to the 
shared Service-wide fund. For those most concerned about the short-term 
fee intake, this change in allocation, which decreases the amount of 
funds allocated to remain in the Park where the Pass was sold, may 
create a powerful disincentive for individual Parks to sell or promote 
the sale of the National Parks Pass.
    We applaud your commitment, reflected in Section 2 of the 
legislation, to simplifying the visitor experience and streamlining the 
fee system by exploring the possibility of allowing revenue sharing 
agreements between state agencies and the National Park Service. Just 
as was the case at the beginning of the National Parks Passport 
program, however, making this change will require a significant 
investment in communicating to National Park Service field staff so 
that the full range of Pass options available to the visitor can be 
communicated effectively on the ground. We would welcome the 
opportunity, in partnership with the National Park Service, to explore 
ways to increase our communications to the public and to field staff 
about the fee options available or to otherwise streamline the fee 
system.
    Another key challenge has been to harness the power of new 
technology in order to make the National Parks Passport program the 
most efficient program it can be. While we have made great strides in 
this area--we maintain a database that allows for renewal notices, and 
the use of the Internet and a toll-free number have proved valuable to 
many National Park visitors seeking information--there is often 
dissatisfaction among consumers who have come to expect a higher level 
of service with such Passes. We believe the opportunity is there to 
improve the program by implementing new technologies such as credit 
card capability in every fee booth, access to account numbers by 
National Park Service personnel when visitors forget their Passes, the 
implementation of processes that would allow for the collection of 
usage data, and automatic entry points at Park gates.
                               conclusion
    When creating the National Parks Passport, you did not just create 
an entrance fee for National Parks, you created a powerful 
communications tool and a means for individuals to express their 
support for America's National Parks. The National Park Foundation 
continues to be committed to the National Parks Passport program and to 
finding ways to reach more and more people and connecting them to 
National Parks through the Pass.
    Thank you for your ongoing support of National Parks and the 
National Park Foundation, and thank you again, Mr. Chairman, for the 
opportunity to appear before you today.

    Senator Thomas. Thank you very much.
    Mr. Olson.

              STATEMENT OF KEN OLSON, PRESIDENT, 
               FRIENDS OF ACADIA, BAR HARBOR, ME

    Mr. Olson. Thank you, Senator.
    I'm Ken Olson, and I'm president of Friends of Acadia, 
which is in Bar Harbor, Maine. We're not going to move to 
Michigan, although I understand it's a great State.
    We're an independent nonprofit organization. And in the 
last 3 years--well, since 1995, we've raised about $3 million 
that have been donated either to the national park or to the 
local communities. We are very supportive of S. 1107, to make 
the fee program permanent and to make some enhancements to it.
    By October 1 of this year, Acadia National Park will have 
retained, we think, around $11 million in fees since 1997.
    It made possible a great number of projects. And in your 
packet, you'll see a list of projects that the Park Service 
provided me, on page 3. Once we get beyond the year 2005, 
things become critical in regard to fees in Acadia National 
Park, based on the evaluation, which is quite preliminary, as 
to the number of assets and the financial responsibility 
associated with those assets. And the numbers appear to be 
growing by hundreds of millions, surprisingly, assets that need 
to be taken care of. And the backlog is estimated at many more 
millions than it was before. So the fees are going to be even 
more critical than they are now.
    You have a bar graph, on page 4 of your packet, that I 
think is pretty instructive, because it shows that as the fee 
expenditures have been made, the carryover that the National 
Park Service has kept is being reduced. And, in conversations 
with the Park Service, I learned, for example, just the other 
day, that it takes less than a year now for Acadia National 
Park to spend down the few revenues that it requires. So I 
think there is some pretty good efficiencies that the park is 
doing with the fees, and it's regarding the fees as a public 
trust and spending them well, in our opinion.
    An exciting feature that I'd like to emphasize, Senator, is 
that the--at Acadia National Park, we're doing something called 
``revenue multiplication,'' and there are two examples of that 
on pages 5 and 6 of the testimony that you have, and there are 
some illustrations there that show, for example, a $4 million, 
roughly, fee expenditure by Acadia National Park, largely from 
entry fees, and fundraising that Friends of Acadia has done in 
the arena at $9.2 million, a two-to-one match of entry fees. We 
challenged our donors to match what the park was doing by two 
to one, and, in fact, it worked out. So all that $13 million is 
now available for the Park Service trail system at Acadia. And 
Acadia became the first national park to have a privately 
endowed trail system, and we owe some of that to the fact that 
there was the match available right at the park level.
    The other example to give you is Acadia's bus system, the 
Island Explorer propane bus system, which this year has carried 
its millionth passenger in under five seasons of operation. 
It's rather astounding. It's contributing very little to the 
atmosphere, which is wonderful. More importantly, it's a match, 
again, where L.L. Bean, the famous Maine corporation, has 
contributed to Friends of Acadia a million dollars. We've 
raised another $170,000, and we're matching, by that amount, 
the money that the Park Service is putting in as one of the 
cash participants in the bus system.
    The point, I think, here is that revenues are being 
multiplied. The value to the national park--being returned to 
the national park is tremendous. The value that's being 
returned to the fee spender at the gate is tremendous; in most 
cases, well over two to one on the projects that we work on. 
This is very flexible funding. And when you talk with any park 
officials about this, that's the key ingredient for them, how 
flexible this money is.
    I think your bill gives very appropriate guidelines as to 
how the expenditures should ensue from here. We very much 
support--Friends of Acadia supports the 80 percent formula 
which has been in place and is specified now in S. 1107. We 
recommend that the National Park Pass also be leveled at 80 
percent, instead of the recommended 50 percent that's in the 
bill at the time, and that is because the 80 percent has proven 
to be such an incentive to people who increasingly understand 
that the money is leveraged in favor of that national park, and 
they're really willing to participate in the fee program 
because of that. So we hope you'll take the same formula and 
just apply it across the board.
    The cost of collection, someone spoke earlier, I think we 
concur that they should be fairly flexible. Acadia has a cost 
of collection--by our calculations; this is not the park--but I 
think they're around 25 percent that the park is spending. We 
heard 20 percent from Assistant Secretary Scarlett, and we 
heard another percentage from someone else. But, you know, our 
park is a porous park, Senator, meaning that there are lots of 
ways to get into it, and it's not very easy to control. There's 
complications. And the cost of this program is a little bit 
higher than in some other places. But it is a maximum return, 
nonetheless.
    We also support the private market being involved here in 
the form of commissions to be paid to entities that sell the 
National Park Pass outside, and we think that has some 
important ramifications for educating people about national 
parks before they get there and also streamlining their 
transactions by the time that they've arrived and really would 
like to visit the place or get into their lodgings.
    Finally, one of the little stoppages we think that's in the 
system is that the time lag, where there is one, at Acadia 
National Park tends to be with contracts that needed to be let, 
and there's not enough contracting staff, basically, to let 
contracts efficiently. That's one hangup in the system. And if 
the bill were to allow people whose jobs are related directly 
to the fee program, such as contracting officers to be paid 
from the fee program, I think we could eliminate that problem, 
as well.
    That's my summary, sir, and if you would enter that in the 
record, in terms of the writing that we have in front of you, 
we'd very much appreciate it.
    And I would like to personally extend to you the invitation 
to visit Acadia National Park and see how things are going up 
there. We'd love to have you.
    [The prepared statement of Mr. Olson follows:]
    Prepared Statement of Ken Olson, President, Friends of Acadia, 
                             Bar Harbor, ME
    Thank you, Chairman Thomas, for the invitation to comment. My name 
is Ken Olson. I'm president of Friends of Acadia, an independent 
nonprofit that raises private funds for Acadia National Park in Maine. 
We helped Acadia's staff establish and promote the park's recreational 
fee demonstration program. Friends supports S. 1107, a bill to enhance 
the program and make it permanent.
    Since 1995 alone, Friends of Acadia has donated $3 million to the 
park and adjacent communities, for many projects that could not have 
been mounted without nonprofit funds. S. 1107 will move parks toward 
financial self-sufficiency, help them plan cash flows, and enable more 
private donations across the National Park System.
    By October 1, Acadia will have retained about $11 million in fees 
since FY 1997. Your packet (p. 3)* shows the myriad projects that fees 
are making possible through 2005--road, campground and trail rehabs, 
repairs to historic structures, visitor and ranger facilities, and much 
more.
---------------------------------------------------------------------------
    \3\ Pages 3-6 showing a table, graph, and some pictures have been 
retained in subcommittee files.
---------------------------------------------------------------------------
    Beyond 2005, fees will be yet more critical. Acadia's preliminary 
evaluation puts the replacement cost of the park's more than 600 assets 
at hundreds of millions and the maintenance backlog at tens of 
millions. This does include not roads, bridges, or resources other than 
facilities.
    Also note the bar graph (p. 4) showing that fee expenditures are 
rising at the same time fee carryover is being spent down. Acadia's 
exceptionally proficient staff is using fees in a timely way and 
creating no large surpluses that sit around unused.
    An exciting feature of the Acadia fee program is revenue 
multiplication (pp. 5, 6). Two examples stand out.
    One, Friends of Acadia matched $4 million in park fees with $9.2 
million in gifts, to fix trails. Acadia is the first national park with 
a privately endowed trail system. Visitors are receiving an immediate 
2-for-1 return. As the Friends endowment pays out in perpetuity, the 
return will multiply geometrically. Without the fee match, the park and 
Friends of Acadia could not have launched the project, ``Acadia Trails 
Forever.''
    The second example of revenue multiplication is Acadia's award 
winning propane bus system, the Island Explorer, which will carry it 
millionth passenger this week, though less than five summers old.
    In 2002, L.L. Bean granted $1 million to Friends of Acadia for the 
Explorer. Here a major corporate contribution to a national park again 
matches various park fee expenditures, adding value to the fee program, 
which is also supplemented by state, municipal and other contributions.
    Discussing park funding, a veteran Acadia official said, ``The fee 
demo program is the greatest thing we've got.'' That's because it's 
reliable, flexible cash, allowing multiyear planning and making 
possible highest priority park improvements that otherwise would 
continue waiting for special funding.
    S. 1107 gives a superintendent appropriate spending guidelines 
(sideboards) and appropriate latitude to make allocations based on in-
park circumstances and conditions. Delegating such decisions to 
executive leaders is as crucial to proper park management as it is to 
the best corporate management.

  <bullet> Friends of Acadia supports the 80% revenue retention level 
        specified in S. 1107.
  <bullet> We also recommend that no less than 80% of National Park 
        Passport revenues be retained where the fees were collected, 
        instead of the 50% floor specified in the bill. The 80% figure 
        would encourage visitors to buy the Passport because it 
        financially favors their chosen park, a principle well 
        demonstrated in the fee demo program itself.
  <bullet> We suggest that the cost-of-collection ceiling be made 
        flexible based on reasonableness, instead of a fixed 15%. 
        Acadia is a complex, porous park, and collection costs have 
        averaged about 25%.
  <bullet> We support commissions for sellers of park entry passes 
        because parks will benefit financially and visitors will be 
        better served and informed before they arrive.

    Mr. Chairman, a cause-and-effect relationship exists between 
contracts issued and fee-carryover accumulated--in accounts that bear 
no interest. If Acadia's severe contracting and construction bottleneck 
were eliminated, more projects would get done faster, at lower cost. An 
understaffed park contract office means that only a small number of 
large projects can be let each short, construction year. (Maine has 
nine months of winter and three months of rough sledding.)

  <bullet> Friends of Acadia therefore recommends that the hiring of 
        fulltime contracting and construction personnel, and other 
        fulltime personnel whose functions relate directly to managing 
        the fee program, be paid from fees and authorized in S. 1107. 
        This would minimize inflation effects and project costs, 
        increase the number of projects completed each year, 
        accelerating President Bush's backlog maintenance program. More 
        small projects would be accomplished alongside the larger 
        multiyear ones.

    Thank you, Mr. Chairman, for the original fee demonstration 
experiment and for this important new legislation to improve it and 
make it permanent. Let's go with a winner. I'll be happy to take 
questions.

    Senator Thomas. Thank you. Your comments will be in this 
record.
    I had hoped to go up there later this month, and then I got 
engulfed--my hometown is Cody, Wyoming, and they're having a 
big event, so I, of course, had to go there.
    Thank you.
    Mr. Funkhouser.

          STATEMENT OF ROBERT FUNKHOUSER, PRESIDENT, 
          WESTERN SLOPE NO-FEE COALITION, NORWOOD, CO

    Mr. Funkhouser. Thank you, Mr. Chairman. And I appreciate 
the privilege of testifying before you today regarding S. 1107 
and the Recreational Fee Demonstration Program.
    I would like to thank you, Mr. Chairman, for bringing 
forward S. 1107. After 7 years and four extensions, as you've 
commented, it's time to make the hard choices necessary 
concerning the future of this controversial program.
    The national parks differ greatly from the Bureau of Land 
Management, U.S. Fish and Wildlife Service, and the U.S. Forest 
Service in regards to fee collection authority. The parks, 
unlike the other agencies, have a long history of charging 
entrance fees. They have the existing collection 
infrastructure, a higher level of development, and service that 
the public expects. Above all, fee authority for the parks is 
about fee retention. It's about allowing the National Park 
Service to retain the fees that the agency has been collecting 
for decades.
    In the BLM, the Fish and Wildlife Service, and the Forest 
Service, the Fee Demo program is about establishing new fees. 
And it is this new authority that is so controversial and 
unpopular that we are opposed to.
    Although we support S. 1107, we do have serious concerns 
about the incentive the authority brings with it to maximize 
revenues beyond what is fair and equitable to the American 
taxpayer. The National Park Service, under Fee Demo, has 
doubled and sometimes tripled the entrance fees in some 
national parks. On top of that, the agency now charges for such 
basic services as parking and mass transportation. The agency 
is also charging additional fees for such activities as back-
country hiking and trail use.
    We, again, thank you, Mr. Chairman, for including language 
in this bill that discourages this multi-layering of fees and 
keeps the administrative and collection costs to 15 percent.
    Unlike the National Park Service, Fee Demo has proved a 
failure in the Forest Service, BLM, and Fish and Wildlife 
Service. The 550 million acres of largely unapproved land 
administered by these three agencies are owned by the American 
public. They are held in trust for the citizens of this Nation. 
They're maintained through our taxes. Under Fee Demo, these 
same citizens are being denied access to their lands unless 
they are able and willing to pay additional taxes in the form 
of fees. And these new fees are clearly a new tax, and they are 
a double tax.
    Fee Demo is also a regressive tax. It puts the burden of 
public land management on the backs of rural Americans that 
live adjacent to or surrounded by land managed by these three 
agencies. To mandate that those local residents carry a heavier 
burden of funding for a land-management agency is unjust and 
unfair.
    Fee Demo is also a regressive tax in the sense that it 
discriminates against lower income and working Americans.
    Opposition to Fee Demo in these three agencies has been 
overwhelming and widespread. Across the country, Americans from 
all walks of life and all political persuasions are raising 
their voices against this program. Resolutions of opposition 
have been sent to Congress by the State legislatures of 
Colorado, Oregon, California and New Hampshire. And dozens of 
resolutions have been passed by counties, cities, and towns 
across the nation. Over 260 organized groups oppose this 
program, and civil disobedience is rampant. In California 
alone, over 200,000 notices of noncompliance and citations have 
been issued.
    Americans are passionate about their ownership of these 
lands. They pay their taxes to maintain these lands, and they 
should not be treated as customers or, worse, trespassers. Fee 
Demo takes ownership of these lands out of the hands of the 
public and gives ownership to the land-management agencies. It 
makes trespassers out of taxpayers.
    Fee Demo program changes the mission of the land-management 
agencies from one of resource management and stewardship to one 
of revenue generation. It allows the agencies to appropriate 
their own funds without congressional oversight. The charging 
of tolls on State highways and county roads, forest-wide fee 
programs, fees for unapproved sites in back-country areas, 
simple picnic tables and fees for parking represent some 
excesses driven by these incentives.
    What's more, the Fee Demo program is a financial failure. 
The GAO has found that in fiscal year 2001, the Forest Service 
used $10 million of appropriated funds for the administration 
of the Fee Demo program and to augment collection costs. The 
report also found that the agency had been under-reporting the 
costs of administration, collection, and fee enforcement. The 
bottom line is that the program brought in far less than $15 
million, and the cost of overhead, cost of collection and 
enforcement was well over 50 percent of the gross.
    The amount of costs associated with the collection and the 
use of appropriated funds for program management in BLM and 
Fish and Wildlife Service remains unclear, but the added 
revenues in these agencies are estimated to be $4 million 
combined.
    In conclusion, Fee Demo has been controversial since its 
inception. This program has never been fully dealt with by the 
authorizing committees in the seven long years that it's been 
in place. It has been extended through the appropriations 
process time and time again. After 7 years, it is clear what 
has worked and what has not.
    We urge passage of S. 1107, and we urge that the Fee Demo 
program be allowed to expire next year for the U.S. Forest 
Service, the BLM, and the Fish and Wildlife Service. This new 
fee program in these other three land-management agencies has 
proven to be extremely unpopular with the public, and it is 
financially not just worth it.
    I thank the chairman and the committee for allowing me to 
testify.
    [The prepared statement of Mr. Funkhouser follows:]
          Prepared Statement of Robert Funkhouser, President, 
              Western Slope No-Fee Coalition, Norwood, CO
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the privilege of testifying before you today regarding S. 1107 
and the Recreational Fee Demonstration Program. I am Robert Funkhouser, 
President of the Western Slope No-Fee Coalition.
    The Western Slope No Fee Coalition is a broad-based group 
consisting of motorized recreational interests, property rights 
advocates, hiking and boating interests, community groups, local and 
state elected officials, conservatives and liberals, Republicans and 
Democrats, and just plain citizens. We currently have members and 
member groups in 33 states and are working closely with other groups of 
all interests. Our mission is to end the Recreational Fee Demonstration 
Program (Fee Demo), to require more accountability within the land 
management agencies, and to encourage Congress to adequately fund our 
public lands.
    I would like to thank Chairman Thomas for bringing forward S. 1107. 
The Fee Demo program was begun as an appropriations rider in 1996. It 
has since been extended four times through the appropriations process 
and is now in its seventh year. It is time to make the hard choices 
necessary concerning the future of this controversial program. At this 
juncture we support S. 1107 in making the program permanent for the 
National Parks and allowing the program to expire on its present 
schedule expiration date of October 1st 2004 for the Bureau of Land 
Management, U.S. Fish and Wildlife Service and U.S. Forest Service.
    The National Parks differ greatly from the other three land 
management agencies in regards to fee collection authority. The Parks, 
unlike the other agencies, have a long history of charging entrance 
fees. They have the existing collection infrastructure, a higher level 
of development and service that the public expects.
    Above all, fee authority for the Recreational Fee Program within 
the Parks is about fee retention. It is about allowing the National 
Park Service to retain the fees that the agency has been collecting for 
decades. In the Bureau of Land Management, the U.S. Fish and Wildlife 
Service, and the U.S. Forest Service the Recreational Fee Demonstration 
Program is about establishing new fees and it is this new authority 
that has been so controversial and unpopular that we are opposed to.
    Although the Western Slope No Fee Coalition supports passage of fee 
authority for the Recreational Fee Program within the Parks only, we do 
have serious concerns about the incentive this authority brings with it 
to maximize revenues beyond what is fair and equitable to the American 
taxpayer. The National Park Service, under Fee Demo, has doubled and 
sometimes tripled the entrance fees at some National Parks. On top of 
that the agency now charges for such basic services as parking and mass 
transportation. The agency is also charging additional fees for such 
activities as backcountry hiking and trailhead use. We thank Chairman 
Thomas for including language in this bill that discourages this multi-
layering of fees. It is our hope that as this program takes a more 
permanent application in the National Park Service that these layered 
fees can be reviewed and that in the future congressional oversight can 
play an important part in keeping the National Parks affordable for the 
American citizen to visit. It is largely through the taxpayer's dollars 
that these national treasures are already operated and maintained.
    We also urge Congress to continue supporting the National Parks 
through the use of appropriated funds. Fee revenues should be used only 
to augment Park budgets, not replace appropriated dollars.
    This bill addresses some of the key challenges involved with 
granting fee retention to the National Park Service. It limits 
expenditures related to administration and cost of collection to 15 
percent, in contrast to the 50 percent actual cost of administration 
and collection for the Forest Service in fiscal year 2001. It limits or 
eliminates the multi-layering of fees and it allows the parks to retain 
the revenues from the fees that they have a long history of collecting.
    As opposed to the implementation of the Recreational Fee 
Demonstration Program in the National Park Service, Fee Demo has proved 
to be a failure in the U.S. Forest Service, Bureau of Land Management, 
and the U.S. Fish and Wildlife Service. The 550 million acres of 
largely unimproved land administered by these three agencies are owned 
by the American public. They are held in trust for the citizens of this 
nation and are maintained through our taxes. Under Fee Demo, these same 
citizens are being denied access to their lands unless they are able 
and willing to pay additional taxes in the form of fees.
    These new fees clearly are a new tax and they are a double tax. For 
our supporters who enjoy motorized recreational interests they are 
triple tax. These individuals pay sales tax for their vehicles; they 
pay gas tax for their fuel; they pay registration fees; and they pay 
income tax that helps to pay for land management. Now under Fee Demo 
they are required to pay for accessing public lands.
    Fee Demo is also a regressive tax. It puts the burden of public 
land management on the backs of rural Americans that live adjacent to 
or surrounded by land managed by the three agencies. The public lands 
are an integral part of life in these rural communities. My county in 
western Colorado is 87 percent Forest Service and BLM lands. To mandate 
that those local residents carry a heavier burden of funding of our 
land management agencies is unjust and unfair.
    In fact, the Fee Demo program has been an economic drain on some of 
these communities. Because the program is so unpopular, tourism has 
been negatively affected in many areas where the program is 
implemented.
    Fee demo is also a regressive tax in the sense that it 
discriminates against lower income and working Americans. A Forest 
Service study concluded that 23 percent of lower income Americans no 
longer visited our public lands due to the fees. It stated that 49 
percent of all Americans regardless of income use the public lands 
significantly less due to the fees. Again, many of these lower income 
individuals live adjacent to or are surrounded by BLM, Forest Service 
or Fish and Wildlife Service lands.
    Opposition to the Recreational Fee Demonstration Program has been 
overwhelming and widespread. From New Hampshire to California, from 
Idaho to Arizona Americans from all walks of life and all political 
persuasions are raising their voices against this program. The American 
public is clearly and overwhelmingly against this program in these 
three land management agencies. Resolutions of opposition have been 
sent to Congress by the state legislatures of Colorado, Oregon, 
California, and New Hampshire. Dozens of resolutions opposing the 
program have been passed by counties, cities, and towns across the 
Nation. In Colorado alone, ten counties and numerous towns and cities 
have passed resolutions condemning the program. Over 260 organized 
groups oppose the program, and civil disobedience to it is rampant. In 
California alone over 160,000 notices of noncompliance or citations 
have been issued.
    Americans are passionate about their ownership of these lands. They 
feel that it is their heritage, as it was their parents' heritage. They 
pay their taxes to maintain these lands, and they should not be treated 
as customers--or worse trespassers--on their own lands. Fee Demo takes 
ownership of these lands out of the hands of the public and gives 
ownership to the land management agencies. It is this change in 
relationship that is most disturbing. It makes trespassers out of 
taxpayers. Many of those ticketed have been charged with Class B 
misdemeanors punishable by up to six months in jail and a $5000 fine.
    It is not just the public that suffers from this program. The 
agencies themselves suffer from a strained relationship with local 
communities and the public as a whole. The land management agencies are 
a tentative guest in many communities to begin with. Assuming a heavy 
enforcement role, particularly in counties such as mine, will continue 
to erode any positive relationship that has been built. As the New 
Hampshire Speaker of the House, Gene Chandler, put it, ``This program 
drives a wedge between local governments and the public on one hand and 
the federal land management agencies on the other.'' The longer the 
wedge stays in place, the harder it will be to repair the damage. 
Volunteerism suffers and community involvement suffers.
    The Fee Demo program changes the mission of the land management 
agencies from one of resource management and stewardship to one of 
revenue generation. It allows the three agencies to appropriate their 
own funds without any congressional oversight. This creates a perverse 
incentive to maximize revenue at the public's expense. It is this 
incentive that causes the agencies to be excessive in their 
implementation and enforcement of the Fee Demo program. The charging of 
tolls on state highways and county roads, the implementation of forest 
wide fee programs, the charging of fees for unimproved sites and 
backcountry areas, the charging for simple picnic tables, and the 
charging of fees for parking represent just some of the excesses driven 
by these incentives.
    There are funds already allocated to the management agencies that, 
with reprioritization, can be used to pay down the maintenance backlogs 
in the three agencies and eliminate the very reason for this program. 
Appropriated funds should be spent first for resource management, 
maintenance backlogs, and day-to-day management before being used for 
capital infrastructure. Yet all of the agencies continue to build new 
facilities and infrastructure that only adds to the maintenance needs 
of the future.
    What's more, the Fee Demo program is a financial failure. The 
General Accounting Office recently released the findings of an audit 
concerning the Fee Demo program within the Forest Service (GAO-03-470). 
The GAO found that in FY2001 the Forest Service used $10 million of 
appropriated tax dollars for administration of the Fee Demo program and 
to augment collection costs. This $10 million, almost one-third of 
their total revenues, had been previously unreported in the agency's 
annual report to Congress. The report also found that the agency had 
been under-reporting the costs of administration, collection and fee 
enforcement (see Appendix 1).* The Forest Service claims the program is 
a success with gross revenues in FY2001 of $35 million. The bottom line 
is that the program brought in far less than $15 million and the cost 
of overhead, cost of collection, and enforcement was well over 50 
percent (see Appendix 2). The public has rejected the notion of Fee 
Demo, and financially it is of little value to the American taxpayer.
---------------------------------------------------------------------------
    * Appendixes 1 and 2 have been retained in subcommittee files.
---------------------------------------------------------------------------
    Until the General Accounting Office audits the Bureau of Land 
Management and the U.S. Fish and Wildlife Service Fee Demo programs the 
amount of costs associated with collection and the use of appropriated 
funds for program management in those agencies remains unclear. As it 
stands, the net revenues for the BLM and U.S. Fish and Wildlife Service 
combined are estimated to be less than $4 million in FY2001 (see 
Appendix 2).
    By contrast, in FY2001, the National Park Service reported gross 
revenues in excess of $126 million. Of that amount $30 million was 
spent on administration and collection leaving a net revenue for that 
year of $96 million.
    In conclusion, the Recreational Fee Demonstration Program has been 
controversial since its inception. This program has never been fully 
dealt with by the authorizing committees in the seven long years it has 
been in place. It has been extended through the appropriations process 
time and time again. After seven years it is clear what has worked and 
what has not. We urge passage of S. 1107 and we urge that the Fee Demo 
program be allowed to expire next year for the U.S. Forest Service, BLM 
and the U.S. Fish and Wildlife Service. This new fee program in these 
other three land management agencies has proven to be extremely 
unpopular with the public and it is financially just not worth it.
    Mr. Chairman and members of the Committee, I would like to thank 
you for your consideration and again thank you for allowing me to 
testify before you today.

    Senator Thomas. Okay, thank you.
    Thanks to all of you. We appreciate it.
    Mr. Maddy, I don't quite understand how the pass that's 
used all over the country fits into the demonstration thing 
where 80 percent goes to the one facility. How does that work?
    Mr. Maddy. Well, I believe the way it works, under the 
existing law, is that if the pass is sold at a park or at an 
entry station, then it's credited as a fee collection or a sale 
directly to that park.
    Senator Thomas. I see.
    Mr. Maddy. If a pass is sold by the National Park 
Foundation program through a Web site, through an 800 number, 
or through the mail, then 100 percent of that $50 that's 
collected goes into what would otherwise be the 20-percent pot.
    Senator Thomas. The Park Service pot, I see. Okay.
    I know you and your group work a lot on this in the 
business plans and this and that. How would you improve the 
recreation fee program if you had the opportunity?
    Mr. Maddy. Well, I think one key improvement, Senator, 
would be to take advantage of more opportunities to structure 
strategic partnerships with retailers, with advertisers, with 
media organizations, with the people in the private sector that 
have the greatest facility, the greatest experience and success 
in reaching the public with a value proposition of this kind 
and with a product of this kind, if you will. Again, the 
business planning suggested that, you know, if we were to reach 
out directly to the public with more and more information about 
the availability of the pass, that there's a significant 
untapped market of individuals who would say, for instance, 
``I'd like to have that. I enjoy the national parks, I support 
the national parks. This looks attractive to me. I may or may 
not get $50 of savings by my use of the parks, but I''--people 
who would say they basically want to join.
    Senator Thomas. Yes. So this would be a better marketing 
tool, informational tool.
    Mr. Maddy. And I think we've demonstrated some of that 
potential. I think the Park Service is--you know, they want to 
get it right. They want to be cautious, appropriately so.
    Senator Thomas. Yes.
    Mr. Maddy. But I think the Park Service wants to work with 
the Foundation to explore those. Each season we've done a 
little bit more.
    Senator Thomas. We also need--this is just an observation--
we also need--as Mr. Funkhouser says, we need to make sure 
people understand that this is not a effort to get more money, 
necessarily, for a park and so on, but that it's there to 
assist in the facility to make it more acceptable to them. And 
I know we need to do it.
    Mr. Olson, does your matching fund just go for the Fee 
Demonstration portion of it or for other revenue that they 
have?
    Mr. Olson. It mostly goes toward the Fee Demonstration 
program. There are some other smaller revenues. It's hard to 
match some of the other revenues, in part, because Congress has 
to appropriate those. Since these are coming out of the park 
proper, it's easier to say the match is there and challenge a 
donor.
    Senator Thomas. And your constituency are fairly local 
people in the area.
    Mr. Olson. They include a great number of local people, but 
we have a membership that's nationwide and has some 
international people, as well.
    Senator Thomas. No kidding? That's impressive. That's 
impressive.
    Mr. Funkhouser, do you think it's reasonable to say, 
``Look, everybody pay''--all taxpayers pay a certain amount, 
but not all taxpayers visit. Should the visitors be expected to 
contribute a little more than the taxpayers who do not visit?
    Mr. Funkhouser. We believe that actually the public lands 
are held in trust for all Americans. And I think that allowing 
the agencies to retain fees creates the incentive to actually 
market it and to ``commodify'' it to make it more unaffordable 
for the American citizens to visit. I think if I lived in an 
area that didn't have any public lands, I should certainly have 
the right to go there. These, again, are largely unimproved 
lands that are being built upon with the effort to be able to 
justify charging fees.
    Senator Thomas. I agree with you that not all the 
facilities--or not all the access to BLM and Forest Service--my 
State's much like yours; it works very well for the fee, but 
perhaps you classified and identified, had a criteria, or there 
were certain places that had substantial visitors' facilities, 
would you think that would make sense?
    Mr. Funkhouser. We actually do not oppose user fees for 
areas that have been allowed under the Land and Water 
Conservation Fund Act, such as improved campgrounds, with the 
majority of the following amenities--mechanized boat launches, 
et cetera.
    Senator Thomas. I see.
    Mr. Funkhouser. We feel that those are appropriate charges. 
We certainly, I certainly, don't have a problem paying those 
fees. I believe that the Land and Water Conservation Fund Act 
prohibited the charging for picnic tables, roads, scenic 
overlook, bathrooms, et cetera. And I think that was an 
appropriate definition. In other words, you're not receiving an 
added benefit from sitting at a picnic table. In other words, 
does a picnic table warrant a $5 fee? Is that an amenity that 
the public deserves? I think for a service such as campground, 
mechanized boat launch, and the other allowed charges under the 
Land and Water Conservation Act, are appropriate. And they're 
also--the sideboards are already there under that scenario. So 
there are already conditions set.
    Senator Thomas. Senator.
    Senator Akaka. Thanks, Mr. Chairman.
    I have no questions, but I want to thank the panelists for 
your thoughtful testimony. I want to commend Mr. Maddy and the 
National Park Foundation for what you are doing in grants and 
program support. I also want to commend Mr. Funkhouser for your 
position, and thank Mr. Olson for your strong examples of how 
fees work and how Friends of Acadia work to improve national 
parks.
    Thank you all for your testimony.
    Senator Thomas. Thank you. And I agree. I agree with the 
Senator. These are Federal programs, of course, parks and 
others, but they really work much better when there is 
volunteer work going on with them to support them, to work with 
them, to give them ideas about how it works and so on.
    We're very supportive of this idea of continuing the fee 
program. There are some details yet, obviously, that we don't 
have settled with everyone, including the Department of the 
Interior, but we're going to work at it, and our hope is to get 
this bill tailored however it needs to be to work best and get 
it out this year.
    Thank you all for being here. We really appreciate it. 
Thank you for what you do for our national parks and public 
lands.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

 Statement of James M. Ridenour, Former Director, National Park Service
    Mr. Chairman, members of the subcommittee, it is my pleasure to 
provide written testimony before you today. I appreciate the 
opportunity.
    First, let me say, as former Director of the National Park Service 
and as an interested citizen, I strongly support the authorization to 
expand the boundary of Sleeping Bear National Lakeshore to allow the 
purchase of the land along the Crystal River. This land epitomizes the 
beauty and natural character that makes Sleeping Bear Dunes and 
northern Michigan such a desirable tourist destination for people from 
all over the world.
    The land to be acquired adjoins the Lakeshore, has an area of 
approximately 105 acres and lies along both sides of the Crystal River. 
There are approximately 6,300 feet of high quality river frontage and 
other land forms that have been classified as ``globally rare'' by 
federal resource agencies.
    Notably, the reach of the river running through this land is the 
single most visible and beautiful section of the river. It is highly 
desirable for swimming, canoeing, sightseeing and other recreational 
activities. And, it is a highly logical addition to the Lakeshore as 
the NPS owns the upstream frontage from the river's headwaters to this 
land.
    This issue of the best use of this land did not pop up overnight. 
It has been a highly debated and emotional issue for Michiganders and 
others for many years. I first became aware of the issues involving 
this land when I was Director of the NPS in the early 1990s.
    The owner of this land--a corporation known as ``Bayberry Mills''--
purchased it in 1986 with the stated intent of building a championship 
quality golf course to serve an adjoining destination resort, The 
Homestead.
    From day one, strong dissent from the environmental community arose 
over the owner's plan. Countless meetings, hearings, lawsuits, articles 
and editorials and hundreds of letters to Congress and other 
governmental agencies followed.
    In the mid 1990s I was asked by a local citizens' group to see if I 
could help resolve this issue. Alternatives were considered. An 
exchange of land between the owner and the NPS was one. A purchase by 
the NPS was another. At that time, I did not find a consensus position 
that would respect the owner's private property rights, satisfy the 
concerns of a variety of environmental groups and be acceptable to the 
National Park Service.
    Although we were unable to successfully address the issues and 
satisfy the personalities in the 1990's, I felt then as I feel now--
this land is a highly valuable community and national asset. The use of 
this land has become much more than a local issue. Elected and 
appointed leaders of the State of Michigan have become involved as have 
the U.S. Corps of Engineers, the U.S. Fish and Wildlife Service, the 
U.S. Environmental Protection Agency and the National Park Service. So, 
too, have a large number of entities--both local and national--which 
support various alternatives to the land use issue.
    Early in 2001--again, at the request of the owner and a number of 
citizens--I agreed to act as a consultant and to again try to find a 
way to break this long standing impasse.
    A dialogue ensued among the owner, the National Park Service and 
representatives of various environmental groups as to what might be 
possible. The previously considered exchange concept was revisited. 
Draft boundaries were drawn; public meetings were held; but strong 
opposition to the exchange concept erupted--both locally and 
nationally. Park support groups feared the precedent of giving up any 
NPS land.
    Rightfully so, the owner deserves a final decision as to park 
expansion on this land. The newspaper coverage on this issue has been 
voluminous; strong opinions have developed. However, there is an 
opinion that most all appear to share--that this land is a beautiful 
natural resource and there is great value in having it remain in open 
space for public enjoyment.
    The owner has agreed to consider a purchase in order to get this 
longstanding issue off the table; Environmental groups believe this 
land should be made a part of the Sleeping Bear Dunes National 
Lakeshore. The NPS Regional Office in Omaha concurs and has made this 
land the number one candidate for acquisition in the Midwest Region.
    After years of studying this area and after years of interacting 
with citizen groups, environmental groups, the National Park Service 
and the owner, I have come to the conclusion that the best course of 
action--indeed, the only prudent course of action--is to expand the 
boundaries of the Lakeshore and direct the NPS to purchase this land 
for the benefit of the public.
    I am reasonably confident that most all of the engaged parties, 
including the state, the NPS, the citizen groups, the environmental 
groups and the owner are in agreement with this conclusion and are 
anxious to draw this matter to an end. I ask you to approve Senate 808 
so this matter might finally be resolved in the best interests of all.
                                 ______
                                 
        Statement of Alan Aronson, Fee Demo Subcommittee Chair, 
          National Recreational Issues Committee, Sierra Club
    The Sierra Club wishes to thank the Chairman and the members of the 
Subcommittee for the opportunity to comment on S. 1107: regarding the 
Fee Demonstration Program for the National Park Service. While the 
Sierra Club has not taken a position on this bill, we are concerned 
about some of the proposals made during testimony on September 9, 2003.
    The Sierra Club has long recognized that certain fees may be 
necessary for our National Parks to function in an orderly manner. 
However we view recent increases in and the multiplication of fees in 
the Parks as counterproductive to the reasons we created National 
Parks.
    Our National Parks are first and foremost a part of America's 
heritage; a trust for future generations. They were never intended to 
function as profit centers. Therefore we note with gratitude, language 
within the bill that recognizes the desirability of avoiding the 
multiplication and layering of fees.
    We are however, opposed to making the Fee Demonstration program 
permanent in the Forest Service, the Bureau of Land Management and the 
Fish and Wildlife Service. The Fee Demo Program should be terminated in 
these agencies and they should return to the LWCF guidelines.
    The Sierra Club has opposed Fee Demo since its inception because we 
believed that a proposal that fundamentally altered the relationship of 
the American people to their public lands needed the scrutiny that 
could only come with separate legislation. Instead Fee Demo was imposed 
as a rider on an Interior appropriations bill in 1995.
    Had the proposal received the attention in 1995 that carrying it as 
a rider avoided, many of the problems associated with Fee Demo would 
have been apparent.
    Certainly the local unpopularity that has greeted most of the 
demonstration sites would have manifested itself. This local opposition 
is truly grassroots and cuts across normal political and ideological 
lines. We were concerned that even modest fees would negatively impact 
the ability of lower income families to continue with accustomed usages 
of our public lands. Forest Service studies have validated these 
concerns.
    The inherent differences between National Parks which are discrete 
entities that function as destinations and often attract large numbers 
of visitors as opposed the hundreds of millions of acres that comprise 
the bulk of our public lands and where usage is light and diffuse, also 
would have been apparent.
    The paucity of successful examples in Secretary Scarlett's 
testimony demonstrates these differences. The overwhelming majority of 
the revenue in the program has come from the National Parks. Based on 
the amount collected and the costs of collecting them, the program has 
to be rated a failure in the Forest Service.
    The amounts collected by projects in the BLM and FWS are likewise 
insignificant and, given the nature of those department's holdings, are 
unlikely to improve. Viewed in the light of the unpopularity of the 
program, the amounts collected pale even more.
    We find it problematic that the Interior Department sees a fifteen 
percent cap on collection costs as a barrier to successful 
implementation of the Fee Demo program. Even a cost of collections at 
that level hardly seems the mark of a successful program.
    It would be interesting to know what level the Interior Department 
would consider excessive. It is hard to see how regional and 
interagency passes can improve things. Setting the fees at a level that 
would collect meaningful revenues without that level being a barrier to 
public usage does not seem possible. For every unit like the 7,000 acre 
Sand Flats in Utah, we have millions of acres of public land that serve 
best as watershed, habitat and open space. Usage of these areas is best 
accomplished at low densities and low impact.
    Hiking is one of the fastest growing activities of choice on our 
public lands. The opportunity for solitude is one of the attractions 
these lands offer.
    The primary goal of our public land agencies should be the 
stewardship of the land over the long term. That goal cannot be 
accomplished if the funding of these agencies is tied to recreational 
development. This does not mean that all higher impact uses should be 
automatically excluded, just that the need for revenue should not be 
the driving force in a land use decision.
    Fee Demo has had several years to prove itself. While there may 
have been some limited successes, taken as a whole and, as the GAO 
reports clearly demonstrate, Fee Demo has been a failure. Based on 
public acceptance, funds collected and the usages of those funds 
permanence should not be granted to Fee Demo in the Forest Service, BLM 
or FWS.
    The present maintenance backlog on our public lands is largely the 
result of the various agencies being starved of appropriate funding 
over the past twenty years. It is at a level that, while quite small 
compared to the overall federal budget and the size of our economy, is 
clearly not going to be solved by user fees.
    Given the widespread use of our public lands by relatively low 
impact uses, the most efficient means of funding them is through the 
general budget process. We therefore urge the Subcommittee to keep S. 
1107 focused on the National Parks. The Fee Demonstration program 
should be ended in the other agencies.
                                 ______
                                 
   Statement of Barbara Gilmore Weber, Friends of the Crystal River, 
                             Glen Arbor, MI
    Mr. Chairman, members of the Subcommittee on National Parks, 
Recreation and Public Lands, it is my great pleasure to offer this 
written support for H.R. 408.
    Friends of the Crystal River, a 750 member grassroots 501c3 
organization, was formed 17 years ago, in response to a threat of a 
golf course/residential development being constructed along the river. 
Our mission was clear. We would explore ways and means of preserving 
the natural, ecological, historic, recreational, aesthetic and 
educational values of the Crystal River and its adjacent lands. 
Expanding Sleeping Bear Dunes National Lakeshore boundaries to include 
the Crystal riverine land offered to the National Park for purchase by 
the Homestead Resort accomplishes our goal and benefits the resort. The 
Friends, with sheer joy, enthusiasm and relief, support H.R. 408.
    Friends, joined by other environmental groups, has truly struggled 
and fought diligently to have the Crystal preserved. Sierra Club, 
Michigan Environmental Council, Northern Michigan Environmental Action 
Council, Trout Unlimited, Michigan United Conservation Club, Friends of 
the Cedar River, National Wildlife Foundation, Lake Michigan 
Federation, Izaak Walton League, National Parks and Conservation, 
Michigan Land Use Institute and the Leelanau Conservancy have joined 
with us in our mission. Citizens, from nearly every state, as well as 
citizens living abroad have written to the Friends or to Sleeping Bear 
Dunes National Lakeshore urging the Park Service to purchase the 
Crystal River land that is presently for sale.
    It has been a long and circuitous journey to finally reach an 
agreement on the controversial land use. Friends group has been in 
Michigan's District, Appellate and Supreme Court with our contested 
case. The Federal Court placed our case under the jurisdiction of the 
Army Corps of Engineers. U.S. Fish and Wildlife evaluated the 
Homestead's proposed golf course/residential development and found a 
golf course to be an inappropriate use of the river land. Residential 
construction, within the confines of local and state permits, would be 
allowed. Last year, The Homestead Resort, publicly stated they would no 
longer consider constructing a golf course. Instead, other options 
would be investigated: The resort could build on the land, they could 
sell the property or they could exchange publicly owned park land for a 
portion of the Crystal River land. The last option met with a loud 
public outcry. Now, a rare opportunity is ours: The Homestead Resort 
has offered to sell this exquisite natural resource to the National 
Park Service. The land parcel contains an internationally and 
nationally rare dune and swale land formation. The Natural Features 
Inventory authored for the Michigan Department of Natural Resources 
describes the essence of the Crystal River. Perhaps, a comment offered 
by a park visitor canoeing the river, best describes the Crystal; 
``Look at this . . . you can see right down to the bottom of the river. 
. . . I've never seen a river so crystal clear.''
    Thank you for allowing Friends of the Crystal River to offer our 
support for H.R. 408. We urge you to approve this legislation in a most 
timely manner. Including the Crystal River parcel within the park 
boundaries will be a wonderful gift to the citizens of the United 
States. In turn, the Crystal River will be professionally managed by 
the Park Service and preserved in perpetuity.
                                 ______
                                 
Statement of Gary A. Reese, Ecologist and Michael R. Penskar, Botanist, 
                  Michigan Natural Features Inventory
                              introduction
    The Michigan Natural Features Inventory (MNFI) maintains a 
comprehensive and continually updated database on all state occurrences 
of threatened and endangered plants and animals, as well as lands 
qualifying as natural areas. In addition to maintaining the database, 
the program surveys federal, state and private lands for additional 
occurrences of these entities. MNFI is a join venture of The Nature 
Conservancy and the Michigan Department of Natural Resources (MDNR), 
under contract to the latter agency.
    In February, 1989, MNFI conducted a survey of the Crystal River 
basin in Glen Arbor Township, Leelanau County, Michigan. This survey 
included lands owned by both The Homestead and the National Park 
Service. This is the site of a proposed golf course and homesite 
development to which The Homestead has applied for a wetlands permit to 
the MDNR under provisions of the Goemaere-Anderson Wetland Protection 
Act, P.A. 203 (1979). This act calls for a review of ``the probable 
impact on recognized . . . ecological . . . values'' of proposed 
wetlands projects and a determination of ``whether the activity is in 
the public interest.'' To this end, the Michigan Natural Features 
Inventory wishes to have its findings on the ecological values of this 
project area considered along with other available evidence.
                                methods
    The Crystal River area was photointerpreted by the senior author 
from photos taken August 18, 1938 (USDA B&W BEA-3R-113 and 114), July 
26, 1952 (USDA B&W IR BEA-1K-67 and 68), June 19, 1978 (MDNR Color IR 
13-33-222 and 223), April 30, 1985 (MDNR Color 36-636 and 637), and 
June 15, 1987 (MDNR B&W IR 320- 19-104 and 105). Multiple imagery 
allowed for a more accurate determination of wetland/upland boundaries 
and provided information on past land use which was necessary for 
judging the natural area boundaries. These boundaries are shown on the 
accompanying maps titled ``Homestead Golf Course, Location and 
Generalized Vegetation/Topography'' and ``Homestead Golf Course, 
Natural Communities and Natural Area.''
    The presettlement vegetation of this site was determined from U.S. 
General Land Office survey records. A map entitled ``Homestead Golf 
Course, Presettlement Vegetation'' shows the locations and nature of 
the surveyor's observations in 1850.
    Accuracy of the interpretation was field checked on February 5, 
1989. Peat depths were taken in each major palustrine plant community 
type and soil textures determined in the terrestrial types. Plant 
species composition (primarily of the woody vegetation) was determined 
for four major topographic zones: ridge, swale, river flats, and swamp. 
Tree ages were obtained by reading rings on recently cut stumps and 
increment cores from breast height on live trees. Diameter measurements 
were also taken to determine size-class distribution of the trees by 
species.
                                results
Site Characterization
    The Crystal River area is characterized by conifer-dominated forest 
on glacial lakeplain representing an old lake embayment. Meandering 
through this area is the Crystal River (also known as Crystal Run). As 
this river approaches Lake Michigan, it meanders through swales lying 
between a repeating series of sand ridges. These sand ridges represent 
former beach ridges formed during the receding of higher lake levels 
immediately following glaciation. These ridges are most pronounced 
approximately one-half mile from the present Lake Michigan shoreline 
and can be easily viewed from along Highway M-22, near the junction 
with County Highway 675. Toward the southeast, these ridges become 
progressively less pronounced, eventually grading into an extensive 
cedar swamp. This combination of former dune and swale topography 
associated with a meandering river is unique to at least the Lower 
Peninsula of Michigan. Further study is needed to determine if a 
similar occurs in the Upper Peninsula.
    The dune ridges are comprised of medium to coarse sand and 
dominated by conifers in areas which have not had recent logging or 
clearing. The coniferous trees include northern white-cedar (Thuja 
occidentalis), white pine (Pinus strobus), balsam fir (Abies balsamea), 
hemlock (Tsuga canadensis), and tamarack (Larix laricina), listed in 
their relative order of dominance. Where white pine has been logged, or 
where human activities have disturbed the ground, hardwoods are common. 
These include white oak (Ouercus alba), trembling aspen (Populus 
tremuloides), sugar maple (Acer saccharum), red maple (A. rubrum), and 
paper birch (Betula papyrifera).
    The swales have organic soils (peat and muck) from 2.5 to over 4 
feet deep. In general, the less pronounced the topographic gradient 
between ridge and swale, the shallower the peat depth. The slopes 
between the ridges and swales tend to have a muck and sand mix. The 
swales are dominated by speckled alder (Alnus rugosa) and silky dogwood 
(Cornus amomum), with northern white-cedar, white pine, tamarack, sweet 
gale (Myrica gale), shrubby cinquefoil (Potentilla fruticosa), and 
Bebb's Willow (Salix bebbiana) as abundant. The latter three species 
tend to dominate in the more open swales. Where the swales open to the 
Crystal River, a floodplain shrub-herb community occurs. Swamp rose 
(Rosa palustris), speckled alder and sweet gale dominate, with other 
swale species as associates. The ground layer in this community is 
dominated by marsh fern (Thelypteris palustris), blue-joint grass 
(calamagrostis canadensis), and marsh wild-timothy (Muhlenbergia 
glomerata).
    Approximately one-half mile southeast of M-22 and south of Co. Hwy. 
675, the ridge and swale topography becomes much less pronounced and 
has mostly organic soils. This swamp is dominated by northern white-
cedar with areas of hemlock, underlain by shallow peat over medium to 
coarse sand. Other important species in the swamp include hemlock, 
black spruce (Picea mariana), tamarack, balsam fir, and paper birch. 
Old stumps of white pine, many of which display fire scars, are found 
occasionally throughout the swamp, but few cedar stumps were noted. 
This is undoubtedly due to repeated windthrows in the swamp, which has 
prevented attainment of old-growth cedars since presettlement survey 
time. It must be emphasized that old-growth cedar does not imply large 
diameter trees. The size and structure of trees that currently dominate 
the swamp appear to be a good facsimile of the swamp forest that was 
extant prior to settlement of the area. The many wind throws observed 
during the site survey also indicate a disturbance regime similar to 
that mentioned and recorded by the early land surveyors.
    Size-class distribution with selected tree aging revealed a 
primarily second-growth nature of the forest communities. White pines 
present on the ridges range in size from 18 to 23.5" diameter (at 
breast height) and are essentially equal to the stump diameter of the 
trees present when the site was initially logged (prior to the turn of 
the century). In general, good to excellent regeneration has occurred 
on ridges which have not received a second cutting in modern times. 
Northern white cedar on both the ridges and in the swales range from 4 
to 8 (up to 13") diameter, representing 40 to 85 years old trees. Cedar 
and balsam fir (average 7" diameter) have likely become more abundant 
following logging.
    Within the cedar swamp, northern white cedar is extremely dense, 
windthrown, and predominately even-aged with 7.8" diameters. This 
corresponds closely to the presettlement character of the swamp. Since 
the present trees are approximately 65 years old, it is likely that the 
site was catastrophically windthrown in the 1920's. Presettlement 
surveyors noted a similar wind thrown nature in 1850. White pine stumps 
within the swamp are approximately 24" stump diameter, with only minor, 
local regeneration of white pine.
    The site was also examined for the presence of potential habitat 
for the Michigan monkey-flower, (Mimulus glabratus var. michiganensis 
(Pennell) Fassett), a taxon wholly endemic to Michigan and known to be 
extant at approximately 10 sites. Michigan monkey-flower, currently a 
candidate for Federal listing by the U.S. Fish and Wildlife Service 
(Category 2 candidate, Federal Register, Feb. 27, 1985), is known to 
occur on the shore of Glen Lake, and thus the potential exists for its 
occurrence in the immediate region. Its habitat is primarily springy 
seepages on forest edges, cedar swamps, and in small openings along 
streams and lakeshores. The presence of ice and a snow cover (although 
relatively shallow) prevented a reasonable assessment of the site for 
the presence of this specific habitat. However, since populations of 
this species are well-known to be associated with ancient or modern 
shorelines of the Great Lakes, the glacial topography of the area, as 
well as the natural community composition, suggest that potential 
habitat for this species does exist, but cannot be assessed until 
spring. Both the river corridor and cedar swamp areas should be closely 
examined by an experienced, knowledgeable botanist.
Natural Area Significance
    The identified natural area is comprised of two natural community 
types recognized by MNFI, a Wooded Dune and Swale Complex and a Rich 
Conifer Swamp. There is a total of forty occurrences of the Wooded Dune 
and Swale Complex in the Lower Peninsula and this community type has 
provisionally been ranked as ``rare'' by MNFI. Very few of these 
occurrences have been surveyed for natural area significance. However, 
it is the opinion of the authors, based on considerable field 
experience in Michigan and a cursory examination of historical aerial 
photos for each occurrence, that this community type has been heavily 
impacted by logging throughout the state and that few, if any, higher 
quality and less impacted examples than the Crystal River site exist. 
The Crystal River occurrence is slightly smaller than average in size, 
but is well recovered from early human disturbances (e.g., it has good 
to excellent conifer regeneration following historic logging, has 
attained essentially similar age structure to that present at logging, 
and has a tree species composition similar to that reported by land 
surveyors in 1850). Furthermore, it is unique among occurrences in the 
Lower Peninsula by virtue of its association with an exemplary aquatic 
feature, the Crystal River, which courses through some of the 
interdunal troughs. We consider this occurrence to be important for 
protection as a natural area under county or regional government 
jurisdiction. This occurrence is possibly significant for state or 
federal government jurisdiction pending further study of the type in 
Michigan.
    The Rich Conifer Swamp type is provisionally ranked between 
``rare'' and ``secure'' within Michigan, with comparatively more 
pristine or near pristine examples known than for the Wooded Dune and 
Swale Complex. The Crystal River occurrence of this community type is 
relatively undisturbed by humans, having had only local cutting of 
white pine (and possibly hemlock) at the turn of the century.There is 
no evidence of cedar cutting, probably because the swamp was severely 
windthrown. Present tree species composition and structure is like that 
reported in the 1850 land survey. Alone, the Rich Conifer Swamp is of 
significance as a natural area under county or regional jurisdiction.
    Upon additional study of Michigan's other Wooded Dune and Swale 
Complex occurrences, it is possible that this site could qualify as a 
federal Research National Area.

                                 <all>


</pre></body></html>
